<html>
<title> - EFFORTS ON MARINE DEBRIS IN THE OCEANS AND GREAT LAKES</title>
<body><pre>[Senate Hearing 115-225]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-225

                    EFFORTS ON MARINE DEBRIS IN THE 
                         OCEANS AND GREAT LAKES

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                Available online: http://www.govinfo.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-978 PDF                     WASHINGTON : 2018 


































       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana 


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 25, 2017....................................     1
Statement of Senator Sullivan....................................     1
    Prepared statement from the American Chemistry Council.......    30
Statement of Senator Peters......................................     3
Statement of Senator Inhofe......................................    18
Statement of Senator Booker......................................    20
Statement of Senator Schatz......................................    21
Statement of Senator Cantwell....................................    24
Statement of Senator Blumenthal..................................    27
Statement of Senator Markey......................................    28

                               Witnesses

Ambassador David A. Balton, Deputy Assistant Secretary of State 
  for Oceans and Fisheries, U.S. Department of State.............     4
    Prepared statement...........................................     6
Nancy Wallace, Director, Marine Debris Program, Office of 
  Response and Restoration, National Ocean Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of 
  Commerce.......................................................     8
    Prepared statement...........................................    10
Melissa B. Duhaime, Ph.D., Assistant Professor, Department of 
  Ecology and Evolutionary Biology, University of Michigan.......    32
    Prepared statement...........................................    33
Hon. Sheldon Whitehouse, U.S. Senator from Rhode Island..........    65

                                Appendix

U.S. Coast Guard, prepared statement.............................    71
Response to written questions submitted by Hon. Gary Peters to 
  Melissa B. Duhaime, Ph.D.......................................    72

 
         EFFORTS ON MARINE DEBRIS IN THE OCEANS AND GREAT LAKES

                              ----------                              


                         TUESDAY, JULY 25, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding], Fischer, Inhofe, 
Gardner, Young, Peters, Cantwell, Blumenthal, Schatz, Markey, 
and Booker.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. The Subcommittee on Oceans, Atmosphere, 
Fisheries, and the Coast Guard will now come to order.
    Good morning, everybody. I'd like to thank our witnesses 
for appearing. We have two panels today of very distinguished 
witnesses.
    I also just want to mention at the outset that this is one 
of these issues I think a lot of times takes place in 
Washington, but you don't get a lot of media attention because 
they are very bipartisan, and sometimes I think our media, 
whether here or back home, loves to focus on the conflict. But 
on a big issue that's very important to the country that's 
bipartisan, you get a little less attention maybe because 
there's not so much conflict here.
    But, nevertheless, I want to thank my colleagues for being 
here. I particularly want to thank Senator Booker for his 
leadership on this issue. Hopefully, Senator Whitehouse is 
going to be joining us soon.
    But as all of you know, marine debris poses a significant 
threat to our natural areas, wildlife, shorelines across the 
United States, our fisheries, but also across the globe. Eight 
million metric tons of marine debris enters our oceans and 
Great Lakes every year. My state of Alaska, in particular, is 
impacted. We have 34,000 miles of coastline, larger than any 
other state, and as a matter of fact, larger than the rest of 
the coastline of the United States combined, and we are very 
negatively impacted by marine debris as ocean currents carry 
millions of tons of trash to our shores in Alaska.
    But it's not just marine debris impacting the livelihood of 
the people of my state. It's literally every state with a 
shoreline, whether New Jersey or Hawaii or Michigan, in our 
country. What is particularly troubling about the marine debris 
challenge and crisis--and we believe it's absolutely a crisis--
is that the majority of marine debris in the world's oceans 
come from five countries in Asia--China, Thailand, the 
Philippines, Vietnam, Indonesia, and South Korea.
    So a few months ago, a bipartisan group of my Senate 
colleagues and I introduced the Save Our Seas Act, which takes 
steps to engage these countries, which is why it's so important 
to have the State Department represented here, and also provide 
our Federal agencies with the resources they need to clean up 
our waters and prevent trash from becoming marine debris.
    It's encouraging that Senators from both sides of the aisle 
are working together to introduce meaningful legislation to 
tackle the important issue of marine debris, and our bill has 
already been unanimously moved out of the Commerce Committee, 
and I believe we're starting to look at the possibility of hot-
lining it. The Save Our Seas Act encourages the administration 
and State Department to engage with the world's leading trash 
producers and to take steps to address the impact of marine 
debris so that we can, together, become better stewards of our 
environment, oceans, and waterways.
    Not only should we be helping other countries both with 
their waste management infrastructure, but we should also try 
to help facilitate the cultural change. As children in this 
country, we learn about recycling and are taught about respect 
for our environment and natural places, but this is not the 
case everywhere in the world, and I look forward to hearing 
from Ambassador Balton how we can help export this stewardship 
mentality to other nations.
    The Save Our Seas Act also reauthorizes NOAA's important 
Marine Debris Program, which is led by Ms. Wallace, our other 
witness today. It has helped to clean debris on America's 
shorelines and the Great Lakes since 2006. The Save Our Seas 
Act would also provide additional support to states in the 
event of severe marine debris events like the one we saw 
following the Fukushima tsunami.
    Last Congress, I had the opportunity to hold a hearing on 
this topic as Chairman of the Senate Environment and Public 
Works Committee's Subcommittee on Fisheries, Water, and 
Wildlife. And, again, I want to thank Senator Whitehouse for 
his leadership on that committee. Last year, he and I were the 
Chair and Ranking Member on that hearing, and I look forward 
today to building on that, to hear the perspective of Federal 
agencies and others most engaged on this topic, and to learn 
about their efforts to combat marine debris and suggestions on 
how we in the Congress can do a better job.
    Our oceans are a bipartisan issue. Please accept the 
introduction and unanimous support of this committee of the 
Save Our Seas Act as a demonstration of that bipartisan 
support. I want to thank our witnesses, Senator Peters, and 
others for the hard work on this important legislation. We are 
looking forward to a meaningful committee hearing today.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Chairman Sullivan, for 
calling this hearing, and I want to also join in thanking our 
witnesses, Ambassador Balton, Director Wallace, and I'm pleased 
to welcome Dr. Melissa Duhaime from the University of Michigan, 
who will be sharing her research and expertise on debris in the 
Great Lakes.
    Mr. Chairman, clearly, your state, with the longest 
shoreline in the United States, is vulnerable to the negative 
consequences of marine debris. But my home state of Michigan 
certainly is not immune from it, with more freshwater coastline 
than any other state and second only to Alaska in total 
shoreline. And though we may call it marine debris, what we're 
really talking about is trash pollution in our water, water 
that is in the Great Lakes providing drinking water, 
navigation, abundant opportunities for recreation, including 
fishing, boating, and diving.
    Folks used to think that dilution is the solution to 
pollution, but in the Great Lakes, the negative consequences of 
that strategy are readily apparent. In 2015 alone, the Alliance 
for the Great Lakes removed nearly 100,000 pounds of debris 
from Great Lakes coastal habitats, and that didn't even put a 
dent in it because scientists estimate that there are nearly 22 
million pounds of plastic pollution that enter into the Great 
Lakes every single year. In Lake Michigan alone, that 
translates to approximately 100 Olympic size pools full of 
plastic bottles every year going into it.
    While surface currents move ocean debris into floating 
garbage patches, winds and lake currents often bring Great 
Lakes trash right onto our beautiful beaches. So it's no 
surprise that in 1970, it was a Great Lakes senator, Gaylord 
Nelson, who spearheaded the very first Earth Day. Around that 
time, the three R's emerged, and school children were learning 
to recycle, reduce, and reuse. And to this day, the three R's 
provide a roadmap to address our growing trash problem, both in 
the Great Lakes as well as in the oceans.
    And, yes, cleanup is certainly essential, but we have to 
stem the tide of trash before it actually enters into the 
waterways. In Michigan, NOAA is playing a very key role. The 
Northeast Michigan Great Lakes Stewardship Initiative, Michigan 
Sea Grant, Michigan State University Extension Office, and the 
Thunder Bay National Marine Sanctuary have come together in a 
partnership with schools, teachers, and, most importantly, with 
leaders of tomorrow to raise awareness about Great Lakes trash 
pollution.
    Last year, a team of Alpena, Michigan, public school 
students at Ella M. White Elementary School used nets to trawl 
for garbage in the Thunder Bay River, and they were shocked 
with what they found. So they created a film called Plastics 
101, and the video adds a fourth R to the old adage, and that 
is refuse, meaning to refuse single use plastics whenever you 
can. So I think it's safe to say that their families are 
probably now using reusable grocery bags and water bottles 
after the production of that film, and this creative and 
informative film will be shown to third, fourth, and fifth 
graders learning about single use plastic pollution.
    Trash pollution is also a global problem in need of global 
solutions. The U.S. is a party to both the international 
treaties governing at sea waste disposal, the London Convention 
and MARPOL Annex V. But as I believe you will hear today, most 
marine debris, about 80 percent, actually starts on land. It 
isn't intentionally released into our water, but it ends up 
there because of waste management--can certainly be a 
challenge--or due to natural processes like wind, storms, or 
floods. The Department of State is integral to efforts to 
improve waste management systems in developing nations.
    So, Mr. Chairman, I'm heartened by your leadership on the 
Save Our Seas Act and your eagerness to work together to 
strengthen the marine debris program at NOAA and the Department 
of State. I'm concerned that if we don't adequately fund these 
initiatives, we will pay for it in the long run. Trash 
pollution impedes waterborne commerce, it can introduce 
invasive species that wreak havoc on local ecosystems as well 
as our economies, and trash pollution introduces chemicals into 
our food chain.
    But this problem is one that we can begin to address, and 
I'm confident that our up and coming leaders, folks like the 
Ella White Elementary River Raiders and Bob Thompson's class 
will use technology, innovation, and awareness much better than 
we may have done in the past. But one thing is for sure. They 
are certainly watching our example here today, and we look 
forward to making a move forward.
    Thank you.
    Senator Sullivan. Thank you, Senator Peters.
    I appreciate the witnesses that we have for this hearing 
today: Ambassador David Balton, the Deputy Assistant Secretary 
for Oceans, Fisheries, and the Bureau of Oceans and 
International Environment and Scientific Affairs; and Nancy 
Wallace, the Director of NOAA's Marine Debris Program.
    You will have five minutes to deliver your oral statement. 
A longer written statement will be included in the record, if 
you so choose. Why don't we begin with Ambassador Balton.

            STATEMENT OF AMBASSADOR DAVID A. BALTON,

         DEPUTY ASSISTANT SECRETARY OF STATE FOR OCEANS

            AND FISHERIES, U.S. DEPARTMENT OF STATE

    Mr. Balton. Good morning, Mr. Chairman, Ranking Member 
Peters, members of the Subcommittee. I really do appreciate the 
opportunity to testify today. I do have a written statement and 
ask that it be included in the record.
    Senator Sullivan. Without objection.
    Mr. Balton. As you said, Senator, marine debris is a large 
and growing global problem. It harms fishing industries through 
losses due to abandoned and derelict fishing gear. Floating 
debris fouls ship drives and poses major navigational hazards 
to oceangoing vessels, and it poses costs on the tourism 
industry, and, of course, it harms the marine environment 
itself.
    Though marine debris includes various materials, one of the 
most common and troublesome is plastic. Current estimates 
indicate that there are already 150 million tons of plastic 
waste in the ocean, and, as you said, another 8 million tons 
added each year. Without action, there could be one ton of 
plastic for every three tons of fish in the ocean by 2025, and 
by 2050, there could be more plastic than fish by weight in the 
ocean.
    No nation acting alone can solve this problem. Objects that 
enter the ocean in one location wash up thousands of miles 
away, making marine debris truly a transnational issue. 
Similarly, governments acting alone cannot solve the problem. 
Combating marine pollution effectively requires efforts from 
all stakeholders, public and private.
    But the very visible nature of marine debris and the 
rapidly growing awareness of its cost has made it an issue of 
strong public interest. I'm happy to report that a large and 
growing number of international organizations and fora are now 
focusing on marine debris, and a growing number of stakeholders 
are working with governments to address the problem. My 
department, the Department of State, works with NOAA and other 
interested agencies, foreign governments, international 
organizations, private sectors, civil society to raise 
awareness of the problem and to push for remedial action. Let 
me just mention a few examples.
    The Our Ocean conferences made marine pollution a real 
focus, producing significant public and private action. The 
2016 conference alone yielded commitments of about $1 billion 
to address marine pollution and spurred partnerships of various 
kinds. The next Our Ocean conference, which will take place 
this October in Malta will again have marine pollution as a 
focal point.
    The United Nations has also given marine debris increasing 
attention partly because of our advocacy and extensive work. 
The U.N. launched its Global Partnership on Marine Litter in 
2012. Two weeks ago, a U.N. ocean conference in New York 
focused on implementation of Sustainable Development Goal 14, 
which commits all governments to reduce and prevent marine 
debris of all kinds.
    In the G7, we are working to coordinate individual country 
initiatives, for example, by supporting additional research on 
microplastics and their impact on human health, improve 
scientific monitoring, and advocating for better use of 
resources to recover, reduce, recycle, and repurpose waste. 
Through the G20, we seek to connect with key developing 
partners, such as India, Brazil, and South Africa, with U.S. 
agencies to share expertise and to promote their capacity to 
become regional leaders.
    As Senator Peters mentioned, we are party to the Marine 
Pollution Suite of Conventions adopted by the IMO, particular 
Annex V. We're also party through a protocol to the Cartagena 
Convention on land-based sources of marine pollution. Using 
this tool, we are leading an effort to make marine debris 
reduction a priority in the Caribbean region. In the South 
Pacific, we are using the Noumea Convention to provide 
financial and technical support to governments in that region.
    Our current focus is on East Asia for the reason you 
stated, Mr. Chairman. Rapidly developing Asian economies are 
responsible for more than half of all plastic waste entering 
the ocean. It's clear that the growth of these economies has 
outpaced their capacity to manage waste.
    Improving waste management infrastructure in these nations 
can dramatically reduce the amount of plastic entering the 
ocean. So through APEC, partnering with the Japanese 
government, American industry, and conservation groups, we've 
brought together government officials, development banks, 
experts, and NGOs to spur financing for solid waste management 
systems in the Asia-Pacific region.
    We also seek to work bilaterally. We are supporting 
Indonesia, for example, that has announced the goal to reduce 
its marine litter by 70 percent by 2025. Among other things, we 
sponsored Dr. Jambeck of the University of Georgia, one of the 
foremost experts in the field, to travel to Indonesia and to 
the Philippines and Japan and South Africa to catalyze action. 
We facilitated a sister city program between two American and 
two Chinese cities to share best practices on waste management.
    These are some of the examples of the State Department's 
engagement. Thank you once again for the opportunity to 
testify. I'd be pleased to answer any questions.
    [The prepared statement of Mr. Balton follows:]

  Prepared Statement of Ambassador David A. Balton, Deputy Assistant 
 Secretary of State for Oceans and Fisheries, U.S. Department of State
    Mr. Chairman, Ranking Member Peters, and Members of the 
Subcommittee:
    I appreciate the opportunity to testify today to discuss the role 
of the Department of State in working on the international stage on 
reducing marine debris. We have found regular communication between the 
State Department and our interagency partners helpful to ensure 
efficient and effective utilization of our combined resources and 
expertise in our global marine debris engagement.
Marine Debris: The Real Sea Monster
    Marine debris is a large and growing global problem. It harms 
fishing industries through losses due to abandoned or derelict fishing 
gear that continue to capture fish stock but also by polluting marine 
habitats, thereby lowering seafood catches, and ultimately reducing 
food security. Floating debris fouls ship drives and poses major 
navigational hazards for ocean-going vessels, increasing costs for 
seaborne trade. It also imposes significant socio-economic costs, 
particularly for the tourism industry by forcing local, state, and 
national governments to spend millions of dollars cleaning up beaches 
or through lost revenue from tourists who choose to spend their 
vacations away from polluted marine environments.
    Though marine debris includes various materials, such as glass, 
metal, cloth, and rubber, one of the most common, and troublesome, is 
plastic. Plastic is a major source of marine debris due to its 
widespread use--a function of its utility, durability, and low price. 
Globally, reliable estimates indicate that plastic use may double by 
2025 and quadruple by 2050, leading to a dramatic increase in marine 
debris unless we take action. Current estimates indicate that there are 
already 150 million tons of plastic waste in the ocean, with another 8 
million tons added each year. Without action, there could be one ton of 
plastic for every three tons of fish by 2025. By 2050, there could be 
more plastic than fish (by weight) in the ocean.
    This plastic will not go away readily. Plastic can take hundreds of 
years to decompose naturally. Even worse, in many cases it degrades 
into smaller ``micro plastic'' fragments that are impossible to 
retrieve, but which enter the food chain when consumed by sea life.
    This problem cannot be solved by one country alone. Objects that 
enter the ocean in one location can wash up thousands of miles away, 
making marine debris a fundamentally transnational issue. Plastic 
debris has been found in all of the world's waters, from our domestic 
waterways, the Arctic ice, and the most remote uninhabited Pacific 
islands. The very visible nature of marine debris, and rapidly growing 
awareness of its costs, makes it an issue of strong public interest. 
Increasingly, international fora are taking up the question of marine 
debris as the vast scale of the problem becomes understood.
    Combatting marine plastic pollution requires efforts from all 
stakeholders, public and private. We welcome efforts by the U.S. 
private sector to work with governments and other actors to address the 
problem. Plastic products are ubiquitous in modern life because plastic 
is so useful and cost effective, and often without economically viable 
alternatives, which means that reductions or bans on plastic items 
cannot be the sole solution. The American plastics industry estimates 
it will more than triple the net exports of plastics to $21.5 billion 
by 2030. As a result, the U.S. private sector also seeks to promote 
sustainable and responsible plastics use, including by improving waste 
management in markets where waste leakage into the waterways 
contributes to marine debris.
Taking Action Globally
    The Department of State, through the Bureau of Oceans and 
International Environmental and Scientific Affairs, is working with 
interagency, private sector, academic, industry, and non-governmental 
stakeholders to engage multilaterally, regionally, and bilaterally to 
address this increasingly pressing issue.
    Our goal is to develop a comprehensive and coordinated approach 
that brings to bear the American expertise on this matter--both inside 
and outside of the U.S. Government--to others around the world.
    For example, the Our Ocean conferences brought together diverse 
international stakeholders and underscored the importance of global 
cooperation--both from the public and private sector--to prevent and 
reduce marine debris. The conferences have yielded significant public 
and private action, including around $1 billion committed towards 
marine pollution alone in the U.S.-led 2016 conference in Washington, 
D.C. That marine pollution will remain a focus in the 2017 Our Ocean 
conference to be hosted by the European Union in Malta this October is 
a testament to the global commitment to reducing marine debris.
    The United Nations has also given marine debris an increasingly 
prominent role in recent years, partly because the United States has 
worked extensively to elevate the issue within UN bodies. As you will 
hear from my colleague Nancy Wallace at NOAA, the UN's Global 
Partnership on Marine Litter was launched in June 2012. Since then, 
nations, including the United States, have worked in concert to prevent 
and reduce marine debris worldwide, while mitigating its impact on 
economies and human and animal health. The recent UN Ocean Conference, 
focused on the implementation of Sustainable Development Goal 14, put 
marine debris front and center.
    The G7 and G20 fora are also opportunities to push for progress in 
tackling marine debris.
    In the G7, we are working to promote better coordination of various 
individual country initiatives supporting additional research on micro 
plastics and their impact on human health, improved scientific 
monitoring, and advocating for better use of resources to recover, 
reduce, recycle and repurpose waste. We also support the G7 focus on 
working through the existing Regional Seas Programs and Regional 
Fisheries Management Organizations to address this issue.
    In the G20, we seek to connect key developing G20 member partners 
such as India, Brazil and South Africa with U.S. expert agencies to 
share our expertise and to promote their capacity to become regional 
leaders in combatting marine debris. The G7 and G20 efforts complement 
the United Nations Environmental Assembly's work to implement regional 
marine litter plans of action.
    The United States is a member of two Regional Seas Programs that 
engage neighboring countries to collaborate on preventing marine 
pollution of various types from entering the ocean. Through the 
Caribbean Environment Program, created in connection with the Cartagena 
Convention, we led an effort to make marine debris reduction a priority 
and instituted an initiative in partnership with the EPA to develop 
community-based trash reduction projects and create effective solid 
waste management policies. Projects in Jamaica and Panama are already 
underway and helping to keep marine debris out of the Caribbean.
    We are also actively engaged in the southern Pacific, home to the 
Hawaiian Islands and U.S. territories and Freely Associated States, 
through financial and technical support under the auspices of the 
Convention for the Protection of the Natural Resources and Environment 
of the South Pacific Region, also known as the Noumea Convention. These 
measures directly affect the quality of life and act to preserve the 
environment for American citizens and nationals.
    Combatting marine debris will require sustained concerted and 
comprehensive action. We need innovations in materials and design, 
dramatic changes in consumer behavior, and significantly improved waste 
management to significantly reduce the amount of marine debris. The 
solutions will also necessarily vary according to regional and national 
context.
    For example, work by manufacturers on improved packaging design to 
reduce the use of plastics is necessary for the nations designing and 
producing plastic goods. But this solution does not translate to 
developing nations where many consumers are forced to use single-use 
plastic sachets of daily goods like soap and detergent, simply because 
they cannot afford to buy larger containers. We need different 
solutions to effectively fit the local realities.
Targeting Marine Debris at the Source
    We are currently focused on reducing marine debris in East Asia as 
the best use of our resources to maximize our impact. Rapidly 
developing Asian economies are responsible for more than half of all 
plastic waste leaking into the ocean because their economic growth 
outstripped waste handling capacity. With just five countries in Asia 
generating more marine debris than the rest of the world combined, we 
can target interventions where they will have the most impact. 
Facilitating investment in waste management infrastructure in these 
developing nations can lead to dramatic reductions in plastics entering 
the ocean in a relatively short time.
    In APEC, for example, we partnered last year with the Japanese 
government, American industry and conservation groups to convene a 
meeting of government officials, development banks, experts, and NGOs 
to spur financing for solid waste management systems in the Asia 
Pacific. We are now engaged with a wide range of stakeholders within 
the U.S. Government, with foreign partners, academia, the private 
sector, and NGOs in an effort to develop the next steps to tackling 
this problem at the source.
    When appropriate, we are also working with key bilateral partners. 
For example, the Department of State is working closely with U.S. 
technical agencies and other partners to support the government of 
Indonesia's recently stated ambitious goal of reducing its marine 
litter by 70 percent by 2025. As part of that effort, we have sponsored 
Dr. Jenna Jambeck of the University of Georgia, who did ground-breaking 
work on sources of marine debris, on an Embassy speaking tour to 
Indonesia, the Philippines, Japan, and South Africa, which will provide 
multiple opportunities to connect one of the foremost experts in the 
field with policymakers, media, and other influential audiences to 
catalyze action.
    We are also facilitating a program between the Chinese cities of 
Xiamen and Weihai and New York and San Francisco to share best 
practices on waste management to reduce and prevent the creation of 
marine litter. Both sides are working to develop an integrated waste 
management plan that can be used to reduce land-based sources of 
pollution in the marine environment. This follows a visit of Chinese 
officials to New York, Chicago, and San Francisco to see how U.S. 
cities have tackled the problem of marine litter by focusing on 
upstream preventative measures.
    These are some examples of the State Department's engagement on 
marine debris in close coordination with our interagency colleagues and 
international partners. Marine debris, in particular marine plastic 
pollution, has consequential ramifications for the economy and food 
security directly impacting the United States. As the SOS bill 
recognizes, addressing marine debris is impossible without close 
international coordination. And the success of the Our Ocean 
conferences illustrates that American leadership can catalyze action to 
advance progress in our global efforts to combat marine debris.
    Thank you once again for the opportunity to testify. I would be 
pleased to answer any questions.

    Senator Sullivan. Thank you, Ambassador Balton.
    Ms. Wallace.

             STATEMENT OF NANCY WALLACE, DIRECTOR,

           MARINE DEBRIS PROGRAM, OFFICE OF RESPONSE

            AND RESTORATION, NATIONAL OCEAN SERVICE,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Ms. Wallace. Good morning, Chairman Sullivan, Ranking 
Member Peters, and members of the Subcommittee. As you 
mentioned, I'm Nancy Wallace, and I'm the Director of the 
Marine Debris Program at NOAA within the Department of 
Commerce. I very much appreciate the opportunity to testify 
today on the issue of marine debris, and my full written 
testimony is submitted for the record.
    Senator Sullivan. Without objection.
    Ms. Wallace. One of our biggest impacts to our oceans comes 
in the form of marine debris. Once treated as an infinite 
resource, the ocean is now overflowing with manmade items that 
do not belong there. These items invariably include things like 
beverage containers, cigarette butts, single use plastic bags, 
and other consumer products.
    Marine debris ranges in size from derelict fishing gear and 
abandoned and derelict vessels to small plastic fragments and 
spheres that are less than 5 millimeters in size. Negative 
impacts of marine debris on the environment include: ghost 
fishing of marine species by derelict gear; entanglement of 
marine mammals, sea turtles, and other species; habitat 
destruction; and ingestion of debris of all kinds. 
Additionally, marine debris can create navigational hazards, 
cause significant economic loss, and affect human health and 
safety.
    The NOAA Marine Debris Program leads efforts in the United 
States to research, prevent, and reduce the impacts of marine 
debris. Authorized by the Marine Debris Act and amendments, the 
program supports marine debris projects in partnership with 
state and local agencies, tribes, nongovernmental 
organizations, academia, and industry. Our mission is to 
investigate and prevent adverse impacts of marine debris. To 
accomplish this mission, our program is built upon five main 
program pillars: research, removal, prevention, regional 
coordination, and emergency response.
    Research is critical to our understanding of the sources of 
marine debris and the adverse impacts that it has on the marine 
environment and humans. NOAA has funded research projects that 
focus on filling key gaps in our understanding of marine 
debris, such as evaluating the effects of micro plastic on 
marine species and assessing economic and environmental impacts 
of consumer debris and derelict fishing gear.
    NOAA annually funds marine debris removal projects across 
the United States, including in logistically challenging 
locations, such as Alaska and the Pacific Islands. For example, 
we are partnering with the Sitka Sound Science Center on 
removal efforts in remote marine debris hotspot communities in 
the Bering Sea, such as St. Lawrence Island and the Pribilof 
Islands.
    While removal can have immediate impacts on the marine 
environment, prevention is the ultimate key to reducing and 
eliminating marine debris. We like to use the analogy of 
turning off the tap. Improving waste management and 
infrastructure and facilitating behavior changes are some of 
the most effective ways to stop marine debris from entering the 
environment in the first place.
    Currently, NOAA partners are working with communities 
around the country to create networks of local leaders for 
prevention efforts and educate the public on what actions they 
can take to help address marine debris. Such successful 
coordination and collaboration with our partners would not be 
possible without our regional staff that are located in 10 
regions around the country. These regional coordinators are the 
boots on the ground for the program, leading efforts to develop 
state and regional marine debris action plans that outline the 
major goals for preventing and reducing marine debris based on 
local needs and issues.
    As part of our final program pillar, emergency response, 
NOAA responds to events such as hurricanes, tsunamis, and 
flooding by leading detection, modeling, monitoring, and 
removal efforts in affected areas. The program is also 
proactively working with Federal, state, and local partners to 
develop marine debris emergency response guides for all coastal 
states.
    Marine debris is a global problem that has local solutions. 
Every country faces unique challenges, and one size does not 
fit all. The most successful solutions take into account local 
knowledge and challenges as well as the best practices and 
lessons learned from across the global community. NOAA works 
very closely with the Department of State and participates in 
international efforts, including the United Nations Environment 
Global Partnership on Marine Litter, the G7 and G20 efforts, 
the Asia-Pacific Economic Cooperation.
    Thank you again for the opportunity to testify about this 
very, very important issue. I'm happy to answer any questions 
you may have.
    [The prepared statement of Ms. Wallace follows:]

 Prepared Statement of Nancy Wallace, Director, Marine Debris Program, 
 Office of Response and Restoration, National Ocean Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce
Introduction
    Good morning Chairman Sullivan, Ranking Member Peters, and members 
of the Subcommittee, thank you for this opportunity to testify on the 
issue of marine debris. My name is Nancy Wallace and I am the Director 
of the Marine Debris Program at the National Oceanic and Atmospheric 
Administration (NOAA) within the Department of Commerce.
    Marine Debris, as defined by the Marine Debris Act, is, ``any 
persistent solid material that is manufactured or processed and 
directly or indirectly, intentionally or unintentionally, disposed of 
or abandoned into the marine environment or the Great Lakes.'' Marine 
debris ranges from lost or abandoned fishing gear and vessels, to 
plastics, glass, metal, and rubber of any size, and is an on-going 
international problem that impacts our natural resources. The NOAA 
Marine Debris Program (MDP) leads national efforts to research, 
prevent, and reduce the impacts of marine debris. Authorized by the 
Marine Debris Research, Prevention, and Reduction Act and Amendments 
(P.L. 109-449, P.L. 112-213) (``Marine Debris Act''), the program 
supports marine debris projects in partnership with state and local 
agencies, tribes, non-governmental organizations, academia, and 
industry. NOAA spearheads national research efforts, engages with the 
Department of State and international organizations on global marine 
debris efforts, and works to change behavior through outreach and 
education initiatives.
    NOAA recognizes that marine debris is a global problem and that 
there is no ``one size fits all'' solution to addressing this issue on 
national and international scales. A recent study estimated that of the 
275 million metric tons of plastic waste generated by 192 coastal 
countries in 2010, approximately 8 million metric tons entered the 
ocean (Jambeck et al., 2015). A large portion of the plastic was 
contributed by rapidly growing, middle-income countries whose waste 
management infrastructures are unable to keep pace with increasing 
economic growth and population sizes. Yet, even countries that have 
made considerable efforts to address plastic debris were still top 
contributors of mismanaged plastic. When paired with the fact that the 
Jambeck study addressed only plastic debris and not other substantial 
sources of marine debris, such as derelict fishing gear and abandoned 
vessels, it is clear that there is still much work to be done to find 
solutions to marine debris on both the national and international 
levels.
    Today I will focus my testimony on the Marine Debris Act, the 
impacts of marine debris in the ocean and Great Lakes, and the program 
pillars of NOAA's MDP.
Marine Debris Act
    The MDP is authorized by Congress as the Federal lead to work on 
marine debris through the Marine Debris Act, signed into law in 2006 
and amended in 2012. The Act authorizes the Administrator of NOAA, 
through the MDP, to ``identify, determine sources of, assess, prevent, 
reduce, and remove marine debris and address the adverse impacts of 
marine debris on the economy of the United States, marine environment, 
and navigation safety.'' (33 U.S.C. Sec. 1952). The Act further directs 
the Administrator, through the MDP, to ``provide national and regional 
coordination to assist States, Indian tribes, and regional 
organizations,'' ``undertake efforts to reduce the adverse impacts of 
lost and discarded fishing gear on living marine resources and 
navigation safety,'' ``undertake outreach and education activities for 
the public and other stakeholders'' on marine debris issues, develop 
``interagency plans for the timely response to events,'' and ``enter 
into cooperative agreements and contracts and provide financial 
assistance in the form of grants for projects to accomplish the 
purpose'' of the Act. 33 U.S.C. Sec. 1952(b)-(c). The amendment in 2012 
reauthorized the program and directs NOAA to address and determine 
severe marine debris events. The Marine Debris Act is the only 
comprehensive Federal legislation that addresses all types of marine 
debris in the ocean and coastal environment.
Marine Debris Impacts
    Marine debris causes significant threats not only to ocean and 
coastal environments and wildlife, but also to human health, safety, 
and navigation. Each year, countless marine animals, sea turtles, and 
seabirds are injured or die because of entanglement in or ingestion of 
marine debris. Additionally, debris can scour, break, smother, or 
otherwise damage important marine habitat, such as coral reefs and 
tidal wetlands, that serve as the basis of marine ecosystems and are 
critical to the survival of many important species. Derelict fishing 
gear, such as nets and crab pots, can continue to capture fish--
something we refer to as ``ghost fishing''--for years after they are 
lost. Not only does this affect the species that end up as bycatch in 
the lost gear by reducing the abundance and reproductive capacity of 
the population, but it also causes fishermen economic losses. For 
example, a recent study on the effects of derelict blue crab traps in 
the Chesapeake Bay by Bilkovic et al., (2016) estimated that ghost-pot 
removal efforts increased harvest value by $33.5 million over a six-
year period. There is also mounting concern over the potential for 
marine debris to serve as a pathway for the introduction of non-native 
species. An extensive literature review by Thiel and Gutow (2005) 
reported over 1,200 species associated with debris from sources all 
over the globe. Along with such ecosystem impacts, coastal communities 
collectively spend millions of dollars annually preventing debris from 
washing up on their shorelines and removing debris that does come 
ashore. It not only degrades the natural beauty of our coasts, but it 
threatens the safety of those who work and play there.
    Marine debris also creates navigation hazards. Ropes, plastics, 
derelict fishing gear, and other objects can become entangled in vessel 
propellers or clog water intakes causing operational problems, while 
larger items, such as lost shipping containers, can become collision 
dangers. Such interactions with marine debris involve costly engine 
repairs and disablement. Abandoned vessels are another navigational 
threat in our coastal waterways that have become a serious marine 
debris problem in many states. The dangerous and costly impacts of 
these different types of marine debris affect both the recreational 
boating and commercial shipping communities, and NOAA is actively 
seeking partnerships with these communities to expand our area of 
knowledge and proactively address the dangers.
The NOAA Marine Debris Program in 2017
    The MDP, guided by the Marine Debris Act, is focused around five 
program pillars: research, removal, prevention, emergency response and 
regional coordination.
Research
    A key tenet of the MDP is research. Congress recognized the need 
for research that determines the sources and helps us understand the 
adverse impacts of debris on the marine environment and navigation 
safety. 33 U.S.C. Sec. 1952(b)(1). The field of marine debris research 
is relatively young with many questions that need to be answered in 
order to advance our understanding of the relationship between marine 
debris and the environment. Over the past 10 years, NOAA has funded 
research projects focusing on the effects of microplastics on marine 
species, development of standardized methods for marine debris 
monitoring, and assessment of the economic and environmental impacts of 
derelict fishing gear and consumer debris. For example, the program 
funded a 2014 study that evaluated the economic costs of marine debris 
on beaches in southern California. Authors found that a twenty-five 
percent decrease in marine debris could result in $32 million in beach 
recreation benefits to local residents during the summer months 
(Leggett et al., 2014).
    Currently, NOAA is collaborating with several academic partners to 
quantify and characterize microplastic debris in the Mississippi River 
and how it may eventually affect the Gulf of Mexico. This study and 
others are working to fill critical knowledge gaps about microplastics 
and other debris types in terms of where it is coming from, where it 
ends up, and how it is impacting the environment. In continuing to fill 
such gaps, the program plans to fund new research projects in FY17.
Removal
    Since its inception, the MDP has been actively involved in marine 
debris removal across the United States. A portion of the program's 
budget goes toward supporting removal projects annually, including 
locally driven, community-based marine debris prevention and removal 
projects that benefit coastal habitat, waterways, and wildlife 
including migratory fish.
    Removal of marine debris can be logistically challenging, 
particularly in remote locations such as Alaska. NOAA is currently 
supporting a derelict crab pot removal and recycling effort by the 
Douglas Indian Association in Gastineau Channel, outside of Juneau, 
Alaska, aimed at reducing loss of commercial species to ghost-fishing. 
In the last few months, tribal members have worked with other partners 
such as the Alaska State Troopers to identify, quantify, remove, and 
recycle or return derelict pots as well as discussed data applications 
and steps forward. The program is also partnering with the Sitka Sound 
Science Center to remove marine debris from remote, marine debris 
``hotspot'' communities in the Bering Sea, such as Savoonga on St. 
Lawrence Island and St. Paul in the Pribilof Islands.
Prevention
    One of the most effective ways to reduce marine debris is through 
prevention, which requires that boaters, fishermen, industry, and the 
general public have the knowledge and training to change the behaviors 
that create marine debris. NOAA's robust outreach and education 
activities focus on improving awareness and changing behavior through 
developing and disseminating public information, and by partnering with 
and providing funding support to external groups including academic 
partners, local governments, and nonprofit groups.
    One of the greatest challenges of prevention is finding effective 
ways to reach diverse audiences and help them discover how they can 
participate in local solutions to marine debris. The National Aquarium 
in Maryland, in partnership with NOAA, is working with underserved 
communities in Baltimore to create a network of leaders to spearhead 
prevention efforts such as community cleanup events and communication 
trainings. In Mississippi, Ship Island Excursions is using their ferry 
service as a platform to educate passengers, many of which are students 
from underserved schools, on the impacts of marine debris on the Gulf 
of Mexico, and how they can prevent the issue.
    The materials and products from our other partnerships, such as 
marine debris curricula, are all free and downloadable from the MDP 
website, and the program's regional coordinators do extensive boots-on-
the ground outreach year-round to promote and share these products.
Regional Coordination
    Working with non-governmental, regional, and international 
organizations, academia, and local, state, and Federal governments will 
enhance marine debris efforts across the country. The program's 
regional coordinators extensively cover marine debris issues in the 
Pacific Islands, West Coast, Alaska, Great Lakes, East Coast, Gulf of 
Mexico, and Caribbean. While these coordinators focus on the local, 
state, and regional issues as a part of the national program, they also 
bring in lessons learned and make connections across the country and 
the world.
    NOAA is leading an effort with states to develop marine debris 
action plans, which outline major goals for preventing and reducing 
marine debris. Marine debris action plans are complete for Virginia, 
Florida, the Great Lakes, Oregon, and Hawaii, with plans in progress 
for the Gulf of Maine, Mid-Atlantic, Southeast, California, and Alaska. 
NOAA also continues to work with partners throughout the country to 
develop and test innovative and cost-effective methods of detection and 
removal of marine debris, and to engage the public and industry, 
including shippers and fishermen, and the recreational community on 
marine debris.
Emergency Response
    Coastal storms and natural disasters are another source of marine 
debris that create hazards in our inland and coastal waters. NOAA has 
responded to emergency events including Hurricanes Katrina and Rita, 
the American Samoa and Japan tsunamis, and Superstorm Sandy. Following 
the Japan Tsunami, the program spearheaded detection, modeling, 
monitoring, planning, and removal efforts for debris from Japan that 
made its way to U.S. shores. NOAA also contributed initial funding to 
the states of Hawaii, Alaska, Washington, Oregon, and California for 
removal and response efforts, and was responsible for administering the 
monetary gift from Japan of $5 million under the Gift Act, 15 U.S.C. 
Sec. 1522, to assist with debris removal in these states. Similarly, 
following Superstorm Sandy, NOAA worked with the affected states (Rhode 
Island, Connecticut, New York, New Jersey, and Delaware) on debris 
modeling, surveying, and removal using funds from the Disaster Relief 
Appropriations Act of 2013.
    NOAA also works with federal, state, and local partners to develop 
Emergency Response Plans that outline the processes and roles of each 
partner for responding to and recovering from a severe marine debris 
event, such as a hurricane. To date, plans have been completed for 
North and South Carolina, Georgia, Florida, Alabama, and Mississippi, 
and plans for Louisiana and Virginia are currently in progress.
National Coordination
    As mandated in the Marine Debris Act, 33 U.S.C. Sec. 1954, NOAA is 
the chair of the Interagency Marine Debris Coordinating Committee 
(IMDCC), a multi-agency body that is responsible for streamlining the 
Federal Government's efforts to address marine debris. Representative 
agencies coordinate a comprehensive program of marine debris activities 
and report to Congress every two years on research priorities, 
monitoring techniques, educational programs, and regulatory action. 
Members include: Departments of State, Interior, Justice, and Homeland 
Security; U.S. Navy; U.S. Army Corps of Engineers; U.S. Environmental 
Protection Agency; and the U.S. Marine Mammal Commission.
    This IMDCC Progress Report provides an update on the activities of 
Federal agencies to address marine debris, as mandated by the Marine 
Debris Act. In 2008, the IMDCC delivered the ``Interagency Report on 
Marine Debris Sources, Impacts, Strategies, and Recommendations.'' 
Subsequent biennial progress reports have evaluated progress in meeting 
the purposes of the Act and these recommendations.
    In addition to the IMDCC, the program also partners with other 
agencies on funded projects, such as a recently completed collaboration 
with the National Park Service and Clemson University that collected 
and analyzed beach sediments to assess the abundance and distribution 
of microplastics and microfibers on U.S. National Park beaches. NOAA 
has also been contributing to a multi-year, multi-partner effort 
between the U.S. Fish and Wildlife Service and others to remove debris 
from the Northwest Hawaiian Islands. In April 2017, 100,000 pounds of 
derelict fishing gear and plastics were transported from Midway and 
Kure Atolls to Honolulu, and incorporated into the Hawaii Nets-to-
Energy program, a highly successful strategic partnership between 
agencies, industry, and local partners. NOAA, the City and County of 
Honolulu, the State of Hawaii, Covanta Energy Corporation/H-Power, and 
Schnitzer Steel Industries, Inc. work together to convert derelict 
fishing gear and plastics into energy. Since its initiation in 2002, 
this program has created enough electricity to power over 350 homes for 
a year in O'ahu. NOAA plans to foster similar collaborations with other 
agencies and industry partners moving forward.
    NOAA has also worked extensively with the U.S. Coast Guard (USCG) 
on contingency and emergency response planning on the West coast and in 
the Southeast and Gulf of Mexico, respectively. Additionally, the USCG 
provided valuable sighting reports of marine debris from the Japan 
tsunami to NOAA's Office of Response and Restoration (OR&R), which 
houses the MDP. From these data, OR&R was able to generate trajectories 
for locating and removing debris items that landed on U.S. shorelines.
International Engagement
    Marine debris is a global problem that has local solutions. In many 
countries, population size and consumption of plastic and other 
consumer debris are increasing more quickly than the capacity to manage 
waste, and thus solutions must be shaped to address country-specific 
challenges. To help others move forward in finding their own unique 
solutions, NOAA works closely with the Department of State and 
participates in other international efforts including: the U.N. 
Environment Global Partnership on Marine Litter (chair), the G7 and G20 
Marine Litter Cooperation, the Global Ghost Gear Initiative, the Asia-
Pacific Economic Cooperation (APEC) (co-chair), the North Pacific 
Marine Science Organization (co-chair), the African Marine Waste 
Network, and implementation of Indonesia's National Action Plan on 
Marine Plastic Debris. As the APEC co-chair, NOAA is working to 
increase collaboration with industry and non-government organizations, 
such as the American Chemistry Council, Ocean Conservancy, and other 
international partners that will help address the diverse waste 
management challenges around the world to minimize the amount of marine 
debris.
    NOAA is also working with the U.N. Environment Programme to help 
organize and facilitate the 6th International Marine Debris Conference 
in San Diego, California, March 12-16, 2018. The conference will bring 
together more than 600 participants from around the world, ranging from 
policy and decision makers, to waste management representatives, 
scientists, private industry, and civil society as well as facilitate 
connections, provide an opportunity for participants to exchange 
information and individual recommendations, and transcend geographic 
boundaries in the fight against marine debris.
Conclusion
    All marine debris comes from humans, and thus it is a problem we 
can, for the most part, prevent. NOAA will continue to pursue on-the-
ground research, prevention, and reduction of marine debris nationwide 
and work with international and other partners to find solutions that 
fit the unique challenges posed by marine debris, particularly with 
respect to waste management. While the problem of marine debris has 
existed for decades and has received considerable attention from NOAA 
and other partners, there is still much to learn as we work to address 
the impacts of marine debris on the environment, marine species, and 
human health and safety. NOAA is committed to investigating and 
preventing the adverse impacts of marine debris, and looks forward to 
working with the Committee to achieve our vision of seeing the global 
ocean and coasts free of debris.
    Thank you very much for the opportunity to testify about this 
important issue. I would be happy to answer any questions you may have.
References
    Bilkovic DM, Slacum Jr. HW, Zaveta D, Jeffrey CFG, Scheld AM, 
Stanhope D, et al., 2016. Ecological and economic effects of derelict 
fishing gear in the Chesapeake Bay: 2015/2016 Final Assessment Report. 
Retrieved from NOAA Marine Debris Program website: https://
marinedebris.noaa.gov/sites/default/files/publications-files/
DFG_Effects_Chesapeake_Bay_Final_Report_2016.pdf
    Leggett C, Scherer N, Curry M, Bailey R, Haab T. 2014. Final 
Report: Assessing the Economic Benefits of Reductions in Marine Debris: 
A Pilot Study of Beach Recreation in Orange County, California. 
Retrieved from NOAA Marine Debris Program website: https://
marinedebris.noaa.gov/sites/default/files/publications-files/
MarineDebrisEconomicStudy_0.pdf
    Jambeck JR, Geyer R, Wilcox C, Siegler TR, Perryman M, Andrady A, 
Narayan R, Law KL. 2015. Plastic waste inputs from land into the ocean, 
Science,. 347(6223):768-771. DOI: 10.1126/science.1260352
    Thiel, M., & Gutow, L. 2005. The ecology of rafting in the marine 
environment. II. The rafting organisms and community. Oceanography and 
Marine Biology: An Annual Review, 43, 279-418.

    Senator Sullivan. Great. Thank you, Ms. Wallace.
    Let me begin with some questions for both of you.
    Ambassador Balton, it was noted in your testimony about the 
challenges that we have with regard to the contributions of 
ocean debris and trash from countries in Asia, particularly the 
five that I noted in my testimony. Why are these countries such 
great contributors to trash in our oceans? What is driving 
this?
    Mr. Balton. I think the simple answer to that, Senator, is 
that their pace of economic development is just moving ahead so 
much more rapidly than their waste management capabilities. So 
to get a handle on this, we really need to help them improve 
waste management processes.
    Senator Sullivan. So is it also a cultural issue, though, 
as well in terms of--and I'm not talking about the culture in 
Asia. I'm talking about a culture of recycling, you know, 
litter. Are there more things--it's economic growth, but is it 
also kind of the recognition that this isn't a problem?
    Mr. Balton. I think we certainly have a greater level of 
recognition here in the United States, perhaps in Europe and 
other developed countries. But take Indonesia, for example. 
They have announced the goal to reduce by 70 percent their 
marine pollution by 2025. That strikes me as reflective of a 
culture that cares about this issue and wants to take action. I 
think we can use that, Indonesia's example, and hold that up to 
some of the other Asian states as the type of steps that they 
should be taking.
    Senator Sullivan. Let me follow up on that. You know, in 
the Save Our Seas Act, one of the important elements of it is 
that it encourages the administration and the Department of 
State to become more engaged with the world's leading marine 
debris producers. Your testimony, I think, did a really good 
job of laying out what is happening, and it's not 
inconsequential. There's obviously a lot of effort on this, 
whether it's individual countries like Indonesia or the U.N. or 
the G20 or G7. You mentioned it's come up in a lot of different 
fora.
    But what specific opportunities do you see for U.S. 
leadership in this area, as we have encouraged in our 
bipartisan bill, and to focus on results?
    Mr. Balton. Given that a big part of the problem is in 
Asia, probably the best forum is APEC, the Asia-Pacific 
Economic Cooperation forum. It has already proven itself 
willing as a forum to provide a venue for dealing with these 
issues. The other economies seem willing to use APEC for this 
purpose. So we have ways of channeling technical and financial 
resources to countries in question. Through APEC, we have 
programs we can push forward through APEC. I would point to 
that as one particularly promising place for U.S. leadership. 
ASEAN might also be used in parallel. We have not used ASEAN so 
much as we might. So I could consider going there.
    We have some higher level opportunities. The Our Ocean 
conference series that we inaugurated here in the United States 
is moving forward. I mentioned earlier the next conference will 
be in Malta. They want the--and the EU will host it. They want 
to focus on marine pollution again as a main topic. We can 
press for commitments there.
    In the Caribbean, the South Pacific, we have Regional Seas 
programs that we're members of. We can use them. And here's one 
thought that we have not done enough about. The regional 
fishery management organizations that exist in the world could 
do more to deal with the problem of lost, abandoned derelict 
fishing gear. I think we should be using them.
    Senator Sullivan. Well, look, we want to work with you on 
all of these opportunities. When we introduced this bill, I've 
had a number of leaders from different countries express 
interest in cooperating with the United States. I think there's 
a lot of encouragement, but I also think there's a recognition 
that, globally, this is not going to really happen in terms of 
solid results unless the U.S. is one of the key leaders, and 
that's part of what we're trying to do in the bill.
    Ms. Wallace, let me ask you a couple of questions in my 
remaining time here. First, thank you for the work that you're 
doing in Alaska and the rest of the country. Two quick 
questions. You talk about your association with other groups, 
local groups. What can Congress do to better assist you with 
your efforts at NOAA?
    And, then, more specifically, you talk about research, and 
particularly micro plastics and how they impact fish. As you 
know, in Alaska right now, we have salmon runs happening 
throughout our wonderful state. The biggest salmon runs on the 
planet Earth are taking place right now. What happens with 
regard to micro plastics in fish like salmon? Has the research 
indicated any kind of negative impact that you've been able to 
see?
    Ms. Wallace. Thank you for those questions. I think to 
answer your first question in terms of support that Congress 
can give, what I want to say most is thank you for the support 
you're already giving. Having a hearing like this, bringing 
attention to the issue, is incredibly helpful. I think working 
with the local partners that we work with in your state has 
been incredibly valuable. They're doing amazing work, and 
Congress has a substantial reach. So if constituents call and 
say, ``What can we do to help this problem?'', the answer is 
join a cleanup, think about what you're using, recycle, don't 
litter. You know, there are some real simple actions that can 
have a big impact.
    To the second question on micro plastics, we are doing a 
lot of research on micro plastics. We're looking at what the 
impacts of micro plastics are on commercial fish species as 
well as invertebrates. So, for example, in oysters, we know 
that when oysters ingest micro plastics, it can affect their 
ability to reproduce. So there is an impact, and we need to 
continue to do research.
    In Alaska, we've been working with the Auke Bay Lab to 
really look at what juvenile salmon are eating. Do they eat 
small pieces of polystyrene, or do they try to avoid it? If 
they do eat it, what happens to them? I think those studies are 
still ongoing, and we have more to learn. But there certainly 
is concern. These are commercially caught species and we want 
to learn more about those potential impacts are up the trophic 
chain.
    Senator Sullivan. Great. Thank you.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    And, again, thank you to our witnesses here today. I 
appreciate your testimony.
    Ambassador Balton, you have discussed both in your opening 
comments as well as questions from Chairman Sullivan the work 
that the Department of State is doing around the world in 
collaboration with other countries and coordinating with other 
countries. But given the issues that we have in the Great 
Lakes, which I outlined in my opening statement, the country 
that has an impact with that is Canada. So I would be 
interested in what ways is the U.S. collaborating with Canada 
on debris in the Great Lakes and in the region, and can we be 
doing a better job? What are your suggestions?
    Mr. Balton. We do cooperate with Canada. They are quite 
like-minded with us. They see marine debris pollution in the 
Great Lakes included as a significant problem. We have a couple 
of bilateral mechanisms we can use, including something set up 
by the International Boundary Waters Treaty 100 years ago. 
That's a good forum for that. We also have the Great Lakes 
Fisheries Commission that can deal with problems of lost, 
abandoned, derelict fishing gear. So those are some of the 
avenues I see for moving forward with Canada. I think we're 
pushing on an open door with them. They want to do more with 
us.
    Senator Peters. That's good to hear. Ambassador Balton, the 
administration has proposed cutting roughly about 30 percent 
from the State Department budget, and I'm sure that a cut of 
that magnitude will have significant impact on a lot of what 
the State Department does. Would you address what that kind of 
cut could possibly mean to our international efforts to deal 
with the marine debris problem?
    Mr. Balton. Senator, I guess I'd answer your question this 
way. I've been at the Department coming up on 32 years. I've 
seen our budgets rise and fall. The role of the State 
Department that I've outlined here is one of advocacy, 
convening, sending experts around the world. It doesn't cost a 
great deal of money. These are not high-dollar programs, and 
I'm reasonably confident that whatever our budget is in Fiscal 
Year 2018 and beyond, we will be able to continue to do this 
type of work on an issue as important as this.
    Senator Peters. Director Wallace, conversations on marine 
debris seem to always lead to more questions than answers. This 
is a very complicated subject, and we're starting to delve into 
that with this hearing as well as the other work that we're 
doing. But one of the top tier issues that was identified in 
the Great Lakes Marine Debris Action Plan was the need to just 
further refine the scope of the problem and better define what 
is really currently known about some of these issues.
    In your estimate, what are some of the biggest gaps in our 
knowledge when it comes to the marine debris issue?
    Ms. Wallace. Well, I think the Great Lakes Action Plan was 
a real model for that conversation, and just to share, we did 
have great participation from Canada in the Great Lakes Action 
Plan as well. One of the emerging issues I think we're hearing 
more and more about that we'd like to do more research and 
understanding on is the microfiber issue. Micro plastics is 
getting a lot of attention and there has been great work at 
reducing the sources around potentially micro beads. But what 
we're learning now is microfibers that can come off our clothes 
are actually a huge issue as well. So I think in terms of 
research, looking at how we may be able to prevent that source 
of debris and also looking at what the potential impacts are 
around that source of debris are important.
    Senator Peters. So we, as you know, last Congress, passed 
the Microbead Free Waters Act, which dealt with microbeads. Do 
you think something along that line may be necessary for 
microfibers, or is it still too early to know that? What should 
be our path forward?
    Ms. Wallace. Well, I think you made a great point before 
about always raising more questions. So I think with the 
microfiber, we'd have to look at how you would do that. So I 
think that's where the discussions would come in, you know. Is 
there some sort of technology that can help to eliminate the 
fibers going through waste water treatment plants? With the 
microbeads, we know exactly where they are. They are in our 
cosmetic products. So having passed that legislation really 
helped prevent a specific source of debris. So I think it would 
be great for all types of debris to start looking at how we 
prevent those specific types of debris.
    Senator Peters. Great, thank you. And, finally, could you 
talk a little bit about how NOAA measures progress in 
addressing marine debris on a regional basis, specifically, the 
Great Lakes. As you're looking at what is truly a global 
problem, but a significant one, the Great Lakes, regionally, 
how are NOAA's efforts used to review that?
    Ms. Wallace. Well, I think the Great Lakes Action Plan, as 
I said, is a model, and what we like to do is because there are 
such different types of debris issues in different places, we 
can really focus on measuring success. So in the Great Lakes, 
specifically, looking at how much debris we've removed. So 
we've partnered with the Alliance for the Great Lakes, for 
example, in Belle Isle to remove lots and lots of debris.
    We can also have monitoring programs that look at 
statistically robust--getting people out on the shorelines to 
count how much debris is out there. Over time, we hope to be 
able to reduce it. And we also measure success by how many 
people we're reaching, so getting that prevention message out. 
In 2017 alone, we've reached over 16,000 K through 12 students, 
which is a great number, and we'll continue to do that, because 
I think behavior change is a big way we are going to make 
success happen.
    Senator Peters. Right. Thank you, and thank you for your 
efforts. Appreciate it.
    Ms. Wallace. Thank you.
    Senator Sullivan. Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    You know, I never realized there was such an issue or there 
was a problem until Senator Sullivan was elected and made it 
very clear to me the problem that exists up in his area and the 
source of that problem. But that got me interested in another 
area, because back in the real world, I was a builder and 
developer in south Texas, back when I enjoyed life.
    I remember so well during that time--in fact, do you 
remember the Ridley sea turtle? It was started by Ila 
Loetscher. She died at 100. She and I used to work together as 
long as 60 years ago on some problems with that particular--
very few places where they breed and that happened to be one of 
the places.
    Now, the reason I'm bringing this up is that this has 
become--some of these have been a problem down there, but 
nobody talks about it down in south Texas. I notice that most--
you talk about in Asia and where the problem is.
    And you mentioned, Ms. Wallace, in your testimony that they 
picked up--Cartagena Convention. Now, when was that?
    Ms. Wallace. Excuse me?
    Senator Inhofe. The Cartagena Convention.
    Ms. Wallace. I'll turn that over to Ambassador Balton.
    Senator Inhofe. I thought you said--you were the one who 
referenced it.
    Mr. Balton. I may have mentioned that, Senator. The 
original Cartagena Convention, I believe, dates about 30 years 
ago. But there was a protocol to it on land-based sources of 
marine pollution that is more recent--I want to say in the 
1990s--and we became party to it probably in the late 1990s. 
Anyway, it's a tool for working with other countries in the 
Caribbean region on this.
    Senator Inhofe. Yes, that's right. And, by the way, I 
appreciate very much your answer to the question that was asked 
of you, because quite often--I know there are dedicated people 
that you work with--and you've been there for a long time--who 
are going to see to it that these programs are carried on, in 
spite of having to tighten up a little bit in fiscal things.
    Now, the reason I mentioned the Cartagena Convention is 
because that focused on the projects--I think you had a project 
in Jamaica and in Panama----
    Mr. Balton. Yes.
    Senator Inhofe.--getting closer to the area where I worked 
for some 15 years. Now, I would assume that the same problems 
exist in some of the Mexican areas and Central American areas 
as do in Asia. And the reason I bring this up is because, in 
that case, they say that there's an ingestion of something that 
is affecting in a negative way the Ridley sea turtles, and, in 
fact, just as recently as two months ago, I was down there 
talking about that.
    Can either one of you--are you familiar with--in that 
area--I know that's not the area of concentration in this 
committee--but what that might--how they might be affected?
    Ms. Wallace. I can take that one. So, yes, I think you're 
absolutely right. We need to work more with our partners to the 
south, specifically in south Texas. We have monitoring programs 
around South Padre Island that just show a massive, a massive, 
amount of debris washing ashore, especially the way the 
currents bring the water and the trash up from Mexico, and 
certain debris items you can certainly track back.
    So that's something that we are working on very strongly. 
We have some grants with groups in south Texas to do a lot of 
removal and prevention, specifically around the sea turtles, 
and prevention around sea turtles, how to make sure we're not 
impacting them, because sea turtles can certainly ingest things 
like plastic bags or other debris items that can be a big 
problem.
    We also have some really strong partnerships in southern 
California and the San Diego area, where just over from 
Tijuana, there's trash coming into the Tijuana River. So we 
have provided funding to set up booms that will actually catch 
that trash before it goes out into the open ocean. But we're 
also working on prevention efforts in Tijuana as well.
    Senator Inhofe. Well, I'm very interested in that area down 
there. You know, I can remember back when the big issue was 
turtle exclusions from shrimp boats, and we had very positive 
results getting involved in that. So there can be some things 
that we help with. So what I would ask of either of you is to 
kind of help me be informed, because I work with those people 
still on a regular basis, and there are a lot of people down 
there concerned about that, and I think they need a little 
guidance, because until this hearing came along, I was not 
aware of that. So if you will keep me informed about that 
particular area, it would be very helpful.
    Mr. Balton. Yes, sir.
    Senator Inhofe. Thank you.
    Senator Sullivan. Thank you, Senator Inhofe, for those 
questions.
    Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I'm really grateful. This is an important 
hearing. It's an issue I've been pushing and pounding away on 
since I introduced a bill in the last Congress. In absentia, I 
just want to say how grateful I am to Senator Sullivan for 
picking this up, being a champion, making more people aware of 
it, and for the generous comments by Senator Inhofe about 
Senator Sullivan's leadership in making people aware, and I'm 
psyched about the bipartisan efforts that are going on right 
now.
    But the problem is that every time I sit down to read about 
this problem, I realize that it is far more dire than we are 
expressing, and that the reality is despite all of these really 
good efforts, we are barreling toward a crisis of global 
proportions. So the amount of plastics being poured into our 
oceans--the amount of plastics, period, has increased 20-fold 
in the last 50 years, and that curve of increase in plastics 
production is not being bent. And with the onslaught of 
shipping stuff around the world, the expanding globalization, 
this production of plastics is just growing and growing and 
growing.
    It's nice also that we're talking to other areas on the 
planet Earth about their problems. But in the United States, we 
recycle only 8 percent of this plastic. The rest of it goes 
into two channels, one into our landfills, which we may think 
is okay, but we'll talk about the carbon problem in a second, 
and the other--a third of it ends up in our oceans and our 
waterways.
    So, again, I'm excited about the progress we're making, but 
I really do feel like we are on our hands and knees crawling in 
the foothills, and there's an Everest of a problem that is 
screaming toward us that we don't seem to understand. It is 
terrifying when I sit down and read the problem. And, frankly, 
there are enough reasons already that our grandchildren should 
be ticked off about this generation and what they stuck them 
with. But what our children are going to inherit is 
unconscionable.
    You know, right now, we have about a third of all plastics, 
as I said, escape the ecosystem--escape collection systems, 
rather, and wind up floating in the sea or in the stomachs of 
our animals and birds, and that amounts to 8 metric tons a year 
right now, before the increase. Now, that's about five 
plastic--five bags filled with plastic for every foot of 
coastline in the world. We throw out these numbers and people 
don't seem to grasp how much plastic is out there right now. 
For every foot of coastline on the planet Earth, you can have 
five plastic bags full of this stuff.
    Plastic production accounts for so much of our oil 
consumption, but that's going to increase. Right now, it's 6 
percent. Soon it will be 15 percent of our oil production that 
is going into producing plastics, and the crazy thing is the 
carbon emissions alone by 2050 will be accounting for 15 
percent of the carbon emission budget that we have before we go 
to points of no return. I'm so encouraged by the bipartisanship 
partnership on this. But it is just not enough.
    So, Director Wallace, please, could you help--just put--
honestly put aside your--the encouraging efforts that are going 
on that are really good to see. But could you let me know your 
personal sense of alarm at the nature and gravity of the global 
crisis we have, that by 2050, we will be in a state of 
planetary peril. Would you please tell me if I'm not--am I 
exaggerating that, in your personal opinion?
    Ms. Wallace. This is an alarming issue. It is. And I think 
we do need to pay attention to it. I am happy that we're here 
talking about this. It's something I work on every single day, 
so I do have to have a sense of optimism. Otherwise, it would 
be a hard job to have.
    I think you're exactly right. One of the things that we 
keep talking about is, you know, the biggest polluters in that 
study that we're mentioning, the Jambeck study, are in Asia, 
the five biggest countries. But the United States is number 20, 
and we are the number one generator of waste in the world. So 
we are contributing to this problem, and I think what we need 
to do is to raise some alarm bells to say this is a big issue. 
It is something we can change. There are actions that we can 
take. We can absolutely use less, generate less waste----
    Senator Booker. Ms. Wallace, can I just--because my time 
has expired. But I just need to say this. I've learned the hard 
way from inner city Newark, New Jersey, that hope does not 
exist in the abstract. It is a response to despair, saying 
despair is not going to have the last work, and I'm going to be 
an agent of hope. And hope is not just some sit back and, like, 
let's pray things change. Hope gets up in the morning, rolls up 
its sleeves, and goes to work.
    And the hope has got to be changing the culture of our 
planet, and in this country, we want to lead on this issue. Why 
aren't we leading in discovering new ways to wrap our products 
that don't involve petrochemicals and that are biodegradable? 
Why aren't we changing the habits in our cities and in our 
towns of plastic bag use and all of this?
    This is a crisis of global proportions, and we're acting as 
if the little teeny bit that we're doing is somehow going to 
stop our grandchildren from experiencing a world where there is 
more plastic--I hope to be alive in 2050--more plastic in our 
oceans than all of the fish and marine wildlife. That is where 
we're heading. In fact, we could be getting there quicker with 
the onslaught of globalization and how many packages I order 
from Amazon Prime, and I could go on and on and on about that.
    So that's my thinking, is that we--this is a great early 
step in this crisis. But we've got to start doing a lot more 
aggressive things if we're going to actually avert a disaster 
that we see coming toward us. Every scientist, every report, 
from the World Economic Forum to the Journal of Science event, 
everything I can get my hands on, says we are heading screaming 
toward a level of peril that our efforts right now don't seem 
to fully grasp.
    Thank you, Mr. Chairman.
    Senator Sullivan. Well, I want to thank Senator Booker for 
his leadership on this issue and obvious passion, and I think 
it's what we need, and it's much appreciated.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    I thank the Chairman and the Ranking Member as well as the 
Senator from New Jersey for their leadership on this issue. 
This is a bipartisan issue. It's important to me for obvious 
reasons.
    Ms. Wallace, I wanted to ask you about the garbage patch in 
the Pacific. Let's just do it this way to start. Describe it 
for us.
    Mr. Wallace. Yes. The garbage patch has gotten this amazing 
sort of reputation that maybe it doesn't deserve. I think 
people think about an island of solid trash out in the middle 
of the ocean twice the size of Texas. That's what we hear, 
right? But what it actually is is the North Pacific Gyre. It's 
a convergence zone, where things that don't have propulsion on 
their own will end up. So it's a collection area.
    But it's not a solid land mass. It's bundles of fishing 
gear. It's tiny pieces of micro plastic that can be spread 
miles apart and throughout the water column around the benthic 
surface. So you can actually sail through the garbage patch 
without necessarily knowing you're there.
    Senator Schatz. It's just covered in trash.
    Ms. Wallace. Well, it is, but it's not--you may not see all 
the trash, right, so it's not this big solid land mass. It's 
actually kind of all spread apart. We've used the analogy of a 
peppery soup, if you think about it, so these little pieces 
that are flowing throughout.
    Senator Schatz. OK. Thank you. And then when it comes to 
marine debris and marine trash, what is the composition of 
marine trash on the planet, if we know this, between sort of 
maritime uses, between dumping, between sort of landfill 
practices that are not best practices? In other words, where is 
this all coming from?
    Ms. Wallace. That's a great question, and it is something 
that we don't necessarily have the exact answer to, but I can 
certainly tell you there is a mix of land-based and sea-based 
sources. For instance, in the northwestern Hawaiian Islands, we 
know that we accumulate 50 tons of derelict fishing gear a year 
in this pristine environment.
    But if you look at the Ocean Conservancy's International 
Coastal Cleanup Data, the past 30 years of picking up trash on 
the beach, the number one item is almost always cigarette 
butts, followed by plastic bottles, plastic bags, consumer 
debris. So we know that a huge amount is these land-based 
sources of debris. NOAA has a monitoring program to try to get 
at that more.
    Senator Schatz. So we don't know?
    Ms. Wallace. Well, I think there's a number that we hear a 
lot, sort of 80 percent land and 20 percent sea, but I think it 
really depends on where, specifically, you're looking. To get a 
real global estimate is hard. But we know it's all bad.
    Senator Schatz. Sure. But from the land-based trash, is 
this--are these landfills that are along the coastline and 
trash that ends up in the ocean, or is this the dumping of 
land-based trash into the ocean?
    Ms. Wallace. In the United States, I would say a lot of it 
is coming from sort of mismanaged waste, things that flow off 
garbage trucks, maybe don't get put into garbage cans, 
littering. But it can come all the way down through the river, 
so it doesn't necessarily have to be your beach debris. Here in 
Washington, D.C., we know things are coming straight down the 
Anacostia River into the Potomac and out into the Chesapeake 
Bay. So it doesn't necessarily come just from our people that 
are right on the shores. It's coming from all over.
    Senator Schatz. The reason I'm asking this is not just to 
satisfy my curiosity, but, obviously, we want to know where it 
comes from so we can figure out how to go upstream and stop it.
    Ms. Wallace. Right.
    Senator Schatz. And, you know, Senator Booker talked 
eloquently about the need for behavior to change and the need 
for some of our societal norms to change, and the good thing is 
that we're innovative enough to still have a convenient life 
and reduce the amount of waste we put into landfills and then 
accidentally put into the ocean. But the question that I have--
and I'm troubled because I have some pretty good experts on my 
own staff, and they have accessed other experts--that we don't 
really know from whence all this comes and how to go upstream 
and determine--especially in the international context--what do 
we do about the poor management of landfills, for instance, in 
Southeast Asia, you know? We just don't know what percentage of 
the problem this comprises.
    Ms. Wallace. Right. So I think, you know, in the United 
States, one of the things we're doing is we have robust 
monitoring programs. So it's a small thing, but we can start to 
see what the biggest items are in specific areas.
    Our partners in Virginia find tons and tons of balloons on 
their beaches, and if we didn't have that monitoring data, we 
wouldn't know. But knowing that they're balloons, maybe we can 
do a really big push on education, saying, ``Hey, don't release 
your balloons into the air.'' In Washington, we found a lot of 
aquaculture debris. We can go to the aquaculture industry and 
say, ``This is a problem. We have the data.''
    In developing countries, I think it's a very different 
story. I think we need to really think about the financing and 
the value around waste and how we incentivize that value and 
that collection. So there are different solutions depending on 
the different places that you are.
    Senator Schatz. Mr. Balton, do you have anything to add?
    Mr. Balton. No. She said it perfectly.
    Senator Schatz. Thank you.
    Senator Booker. Mr. Chairman, can I just submit for the 
record----
    Senator Sullivan. Sure.
    Senator Booker.--because I think what I would really like 
for you and I and others to consider is what these two 
experts--what are some of the things that are not being done or 
not being suggested by the legislation put forth, if they would 
prioritize significantly for Congress to be looking at doing. I 
think an action plan that might be more ambitious for us to 
consider would be really helpful if we could submit that for 
the record.
    Senator Sullivan. Well, yes, why don't we do that in terms 
of our witnesses, all three witnesses today, and if Senator 
Whitehouse has the opportunity to make it, he's going to be 
another witness. But I think that's a good idea. We have 
legislation that, I believe, is supported by the 
administration. We're certainly encouraging you to take 
additional steps. But if you can provide us suggestions for 
what's not in the legislation but you still think we need to 
prioritize, I think that would be a very helpful exercise.
    We'd like to give you as much time as you need to come back 
to us, because we'd like you to get that right, and we'd like 
to get some kind of consensus on it. I think it's an excellent 
suggestion.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and I want to 
thank Ms. Wallace for, you know, this--in another iteration, 
obviously, the tsunami debris which you helped Alaska, 
Washington, and Oregon deal with some of that debris, and we so 
appreciate it, because here we were--this similar issue but, 
obviously, a different cause, and left with a cost--I think in 
one instance, we had a major dock show up on the Oregon coast, 
which was--who was going to remove that? This wasn't like a 
weekend crew of people. So the cost of all of this debris does 
affect our fishing community, our coastal community. So thank 
you for that.
    I wanted to bring up the issue of derelict vessels and--
well, to either of you, really. I mean, the GAO recently 
completed a study on abandoned and derelict vessels, and we had 
this Davy Crockett, which was a derelict barge in the Columbia 
River, and it spilled 1.6 million gallons of oil in the 
Columbia River, and it cost $21 million to clean it up. So the 
GAO in their study found that there were significant gaps in 
who owned this issue.
    So I wanted to hear from both of you what--you know, the 
Coast Guard is responsible for removing the oil and hazardous 
substance but not the vessel; the Army Corps, if it is deemed a 
navigational hazard. So you could have a derelict vessel that 
wouldn't be deemed a navigational hazard and there it would be, 
sitting there for a long time.
    So what is NOAA's role, Dr. Wallace, and what do you think 
we should be doing to create more certainty and predictability 
for our communities about removing derelict vessels?
    Ms. Wallace. Abandoned and derelict vessels are a real 
problem, and I think a lot of people may not think of them as 
marine debris, but they are. For NOAA, we have the ability to 
provide funding, and we do so through competitive grants, to 
remove vessels. But it certainly is not enough funding or 
comprehensive enough to remove every derelict vessel.
    So one of the things that we've been able to do is work 
with different states who have different programs. Washington, 
in particular, has a very good program about collecting fees 
that can then be used to remove those vessels when they become 
derelict. So we've been working with states to help share that 
information. In Florida, they have a great program, a vessel at 
risk program, where there's a lot of enforcement around 
identifying which vessels may become derelict and using 
preventative measures through enforcement opportunities to help 
maybe make them not become derelict.
    But I think it is a gap, and I think that GAO report showed 
that very clearly. If there isn't a responsible party, and if 
there isn't a navigational hazard or oil and gas situation, it 
does become sort of the problem of the local landowner, which 
is not right, and that's where we are right now.
    Senator Cantwell. Do you have a recommendation?
    Ms. Wallace. Well, I think there are more things we can do 
to help prevent them. That's the best thing we can do. If 
there's vessel turn-in programs, in some states, that's an 
opportunity. So if you--it costs a lot of money to dispose of a 
boat appropriately. So there are kind of these opportunities--
certain weekends when people can go and dispose of their boats 
free of charge. I think that would be great. And, also, these 
vessel-at-risk programs, expanding them, and then looking for 
areas where we might be able to have funding through local 
programs that then would help address when a vessel does become 
derelict.
    Senator Cantwell. Mr. Balton, any comments here about 
derelict vessels?
    Mr. Balton. Only this. I'm glad you raised that, because we 
have been focusing almost exclusively, until this point in the 
hearing, on plastic pollution, which is, of course, a serious 
problem. But, as you point out, there are other serious 
categories of marine pollution. You mentioned one. I might 
mention a couple of others. We have nutrient pollution. Excess 
nutrients flow off of, for example, agricultural areas, out 
rivers and the creek dead zones in the ocean. There's some 600 
of those around the world. We have oil pollution problems still 
around the world.
    So in looking at marine debris, it's important not to lose 
sight that there are many different types of pollution, and 
they are amenable to different types of solutions, 
unfortunately. But they're all important.
    Senator Cantwell. Well, I thank my two colleagues for 
having this hearing, and I thank the witnesses, and I hope we 
do spend time on this aspect of it. We had another incident up 
in our shellfish industry in the North Sound. We had another 
derelict vessel, and it shut down the industry up there. So 
these can be more than just an eyesore. They can be a real 
threat to the environment and activity, and I just think this 
gap between Coast Guard and Army Corps and NOAA is still 
something we should think about.
    I'm all for partnership, and I like the idea that you're 
saying that you might be able to prevent some of these. We'll 
look into what states are doing that and what else we can do.
    So thank you, Mr. Chairman.
    Senator Sullivan. Thank you, Senator Cantwell.
    Senator Peters had a follow-up question.
    Senator Peters. Thank you, Mr. Chairman.
    Just a comment I wanted to mention to Ms. Wallace, because 
you talked about fishing gear that gets cut loose or lost or 
whatever it may be floating around the ocean. I actually had an 
opportunity to at least see a video of some courageous folks 
from NOAA out in Monterey Bay, California.
    I was out there recently, and about a week before I was 
there, I know that they were dealing with a humpback whale who 
had swam through an abandoned net that was wrapped all around 
the whale. The whale was struggling, was not going to survive, 
and folks from NOAA actually went out there in a small boat--
went out there and hooked up to the whale--it was like a 
Nantucket sleigh ride from the old days--and cut the net off of 
the whale and set the whale free so it was able to live, and 
then was able to recover that net.
    But I think the American public needs to know that NOAA is 
truly a hands-on agency that goes out there and is saving 
marine mammals as well as other work. So I wanted to thank you 
and all of your colleagues at NOAA for what you do every day.
    Senator Sullivan. Dr. Wallace, I had a follow-up that I 
wanted to ask you about, and I know that you've done a lot of 
work on this issue. It's a particularly challenging issue, but 
it deals with remote areas in our country in terms of marine 
debris cleanup. And I agree with kind of the theme of the panel 
and the witnesses and some of the senators' questions. I mean, 
I think we clearly need to get to prevention as the key, but 
cleanup is also important.
    There are areas, as you know, in Alaska that are extremely 
difficult to collect marine debris from that have literally 
tons of debris on some of our shores. The Gulf of Alaska 
Keeper, an Alaskan nonprofit that NOAA has worked with, 
collected and transported over 1 million pounds of marine 
debris from remote Alaska beaches in 2015 alone, using 
helicopters, barges, other ships with only a small crew of 
dedicated volunteers.
    So what additional resources does your program require--or 
not just resources, but ideas on trying to get to some of these 
remote cleanup areas? Obviously, in Alaska, it's the most 
extreme cases, but I'm sure it exists in Michigan and other 
parts of the country, and this is a challenge for all of us.
    Ms. Wallace. Remote areas are an incredible challenge. That 
specific effort that the Gulf of Alaska Keeper led in 2015 was 
logistically amazing. You know, the fact that they were able to 
helicopter debris off these remote beaches, get them onto a 
barge, and then have that barge go down to Seattle really, I 
think, showcased exactly some of those challenges. We're also 
working with Sitka Sound Science Center in some very remote 
Bering Sea communities to remove debris that is most likely not 
being generated by those communities. It's washing ashore from 
offshore.
    So I think it really does become just leaning on those 
partners that have that technical expertise and providing the 
funding that they need. So a lot of those partners have 
received funding through our competitive grants, and a lot of 
times, for the areas that are more remote, it costs more, and 
they get the higher grants, you know, and that's part of it.
    But you're absolutely right. Removal has immediate 
ecosystem benefits, economic benefits. It's something we're 
going to keep doing.
    Senator Sullivan. Just one final question related to that. 
How do we--you know, NOAA is doing a great job, and we're all 
complimenting you. Our bill looks to reinforce and expand your 
efforts. But how do we empower these organizations that are on 
the ground that are literally the front lines, like Gulf of 
Alaska Keeper and many, many others that Senator Peters 
mentioned, even some of the classroom activities? How do we 
work to further partner, but empower them to be able to 
effectively do this in a more creative way?
    Ms. Wallace. Well, I think one of the things we've been 
very proud of is that a lot of our partners get funding from us 
to get a project started, and then they actually make that 
project sustainable by finding funding elsewhere or, you know, 
thinking about innovative solutions.
    So one of the things we're doing right now that's kind of a 
new, interesting idea is in Dutch Harbor, looking at collecting 
fishing nets that have been accumulating there forever, but 
looking at public-private partnerships, so working with Matson 
and Trident to actually collect the gear, truck it down to 
Seattle, and then actually sending it to Denmark to be 
recycled. I think that's one of the things we have to keep 
thinking about, is how do we get creative with the resources we 
have and the partners that are interested and have resources to 
give.
    Senator Sullivan. Great. Well, again, we'll continue to 
work on that, and I appreciate your efforts in that regard.
    I think we have a couple of other senators who are 
interested in asking the panel some additional questions.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to ask a question about cruise ships. We all know 
that cruise ships are a potential source of debris and waste. 
Let me ask you when cruise ships sail along the coast of the 
United States and out to sea, do you think that the current 
laws are sufficient to protect against the kinds of pollution 
they can cause, the current treaties and rules?
    Ms. Wallace. Well, cruise ships and all ships are subject 
to MARPOL Annex V, so they are not allowed to dump waste, 
specifically plastic waste or household waste, paper waste, in 
all areas. So the laws are there. I think the question becomes 
an enforcement issue, and that would be a question for our 
colleagues at the Coast Guard. But the laws are in place, and 
we are subject to those laws.
    Senator Blumenthal. Well, on enforcement, can you make some 
suggestions for how either the rules can be made more 
enforceable or what can be done to ensure greater enforcement?
    Ms. Wallace. Well, I think, again, I probably would want to 
defer to my colleagues at the Coast Guard since they are the 
lead for enforcement. I think in any case, certainly, education 
about the laws that do exist and really requiring our partners 
in all industries to be able to follow those are very 
important. But I think that may be a Coast Guard question to 
follow up on on the specific enforcement that they do with 
cruise ships.
    Senator Blumenthal. Mr. Balton?
    Mr. Balton. I'm not an expert on the regulation of cruise 
ships, but I can tell you this, that the cruise line industry 
has proven itself willing in the past to work with our 
government to use the cruises themselves as ways to educate the 
people on it about the marine environment, including about 
marine pollution issues, including from the ships themselves. 
So one other idea that might be worth pursuing is partnerships 
with CLIA and other cruise line industry associations to 
actually advance awareness of marine pollution problems.
    Senator Blumenthal. Are there specific efforts at education 
that you think should be undertaken?
    Mr. Balton. So another place where people have the best 
interest in keeping the marine environment pristine are the 
coastal resort communities and the big hotels. And, once again, 
you can enlist these partners to try to educate their 
consumers, the people who come to these places, on the 
importance of limiting trash.
    Senator Blumenthal. When you talk about education, do you 
mean education of passengers on the cruise ships or education 
of the managers and owners of the cruise ships?
    Mr. Balton. I would say both.
    Senator Blumenthal. But maybe you can tell me how 
passengers on a cruise ship--I realize they may toss stuff 
overboard, but the major source of contamination is from the 
waste emanating from the cruise ships, correct?
    Mr. Balton. Yes, so----
    Senator Blumenthal. So, really, when you talk about 
education, isn't the best means of education deterrence, in 
other words, enforcement?
    Mr. Balton. Yes, sir. That makes sense.
    Senator Blumenthal. So that brings us back to enforcement. 
Do you have any opinions on enforcement? Is there sufficient 
enforcement?
    Mr. Balton. Again, you should probably ask that question of 
somebody who is involved in enforcement of those laws, and that 
would principally be the Coast Guard, and also some colleagues 
in the Department of Justice involved in environmental 
enforcement issues of this kind.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Senator Sullivan. Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. Mr. 
Chairman, President Kennedy was right when he once said at the 
shores of the Atlantic Ocean that all of us have in our veins 
the exact same percentage of salt in our blood that exists in 
the ocean, and, therefore, we have salt in our blood and our 
sweat and in our tears. We are tied to the ocean, and when we 
go back to the sea, whether it is to sail or to watch it, we 
are going back from whence we came.
    The Atlantic Ocean, Mr. Chairman, is a natural wonder. 
President Kennedy is correct. And it is also an economic engine 
supporting hundreds of thousands of jobs in key industries such 
as fishing and tourism. Fishing off of the East Coast states 
produces roughly $1.75 billion in direct value for those states 
and more than $4 billion in total economic activity each year. 
Tourism on the East Coast draws visitors to our beaches and our 
coastlines. It generates hundreds of billions of dollars in 
additional economic activity and supports an estimated 800,000 
jobs.
    Marine debris, which can range from larger items like 
plastic bags, water bottles, or other pieces of trash to 
microscopic plastic particles is a threat to this vital oceanic 
wonder and also to the industries in New England and other East 
Coast states that have sustained families in their employment 
for generations.
    During the international coastal cleanup days in the fall 
of 2016, 2,500 volunteers in Massachusetts collected over 
13,000 pounds of marine debris on 164 miles of Massachusetts' 
beaches and waterways. But this is a tiny amount compared to 
the estimated 8 million metric tons of plastic that makes its 
way into the ocean each year.
    Ms. Wallace, how can this massive amount of marine debris 
harm not only our marine life and environment but also 
industries like the fishing industry of Massachusetts?
    Ms. Wallace. Marine debris can have a big economic impact 
both on--from a tourism standpoint, but also from a fishing 
standpoint. So one of the things that NOAA did a few years ago 
was do a comprehensive study looking at the economic impact of 
derelict crab pots in Chesapeake Bay. We found that if you 
remove targeted areas where there are a lot of traps that 
accumulate all at once, you can actually have an impact of 38 
million pounds of crab harvest, which equates to $33 million. 
That's annually.
    We have done similar work in Massachusetts with the lobster 
fisheries. So we've worked with the Department of Marine 
Fisheries to look at how many lobster are actually caught in 
lost fishing gear, and it's substantial. So I think looking at 
how we can look to prevent derelict fishing gear from being 
lost--but a lot of times, you really can't prevent it. So if we 
know where there are areas that we can actually remove to have 
that biggest impact is what we want to do, because these are 
really big numbers.
    Senator Markey. Thank you. So what are the impacts of 
marine debris on fish stocks? Does it impact their ability to 
reproduce? Does it make them more susceptible to disease or 
other environmental stress? How else does it harm that fishing 
stock?
    Ms. Wallace. Well, fishing gear is extremely efficient at 
catching fish or crabs or lobster, and when it's lost, it will 
continue to do so for years. We found, even in Massachusetts, 
where lobster pots can continue to fish for decades. So what we 
want to be able to do is minimize that, because that's a huge, 
huge natural resource impact and also an economic impact on 
fishermen.
    Senator Markey. So the New England Aquarium has been 
participating in a campaign called ``In Our Hands,'' which is 
encouraging the public to choose alternatives over single use 
plastic. Would more organically based plastics help reduce 
marine debris? And how can we take this model to encourage 
using less single use plastic on a larger scale?
    Ms. Wallace. I think materials that are made of natural 
items obviously will degrade quickly in the environment, and so 
that's something we should look at. Biodegradable plastics can 
be a little bit of a misnomer, because they may not ever fully 
degrade in ocean conditions, and we don't want to give people 
the license to be able to toss that product, if they think it's 
biodegradable, into the ocean. So I think we have to be careful 
about looking for alternative materials--certainly something 
that will be important in solving the problem.
    Senator Markey. Great. And as the ranking member on the 
Senate Foreign Relations Subcommittee on Near Eastern and South 
and Central Asian Affairs, I'm curious, Mr. Balton, about your 
work in East Asia. Your testimony discusses the State 
Department's efforts to work with rapidly developing Asian 
economies to reduce marine debris, especially micro plastics. 
International cooperation, especially with developing economies 
in Asia, is essential to reducing the amount of waste in our 
ocean.
    How does marine debris from Asia impact our environment and 
industries here in the United States?
    Mr. Balton. Mostly because the trash that is dumped in the 
ocean there or makes its way into the ocean there arrives on 
our shores in Hawaii and Alaska and the West Coast. But we have 
found some venues in which to engage with the Asian producers 
of marine debris. I was talking earlier in the hearing about 
our efforts to use the Asia-Pacific Economic Cooperation forum 
to strengthen waste management capabilities in these Asian 
states. We're trying to support Indonesia, which has 
articulated a goal of reducing its marine debris pollution by 
70 percent by 2025.
    Senator Markey. Can I just ask you on that issue of 
Indonesia's goal of reducing it by 70 percent by 2025?
    Mr. Balton. Yes.
    Senator Markey. What is the role the State Department is 
playing, our government is playing, in helping the Indonesian 
government to accomplish that goal?
    Mr. Balton. We're trying to connect people in Indonesia 
with the experts in the United States who know about this. For 
example, we sponsored Dr. Jambeck from the University of 
Georgia, one of our leading experts, to go to Indonesia to work 
with the officials there and to raise awareness of this 
problem. So we see ourselves as a facilitator of these types of 
activities.
    Senator Markey. Great. Thank you.
    Mr. Chairman, Mr. Ranking Member, thank you so much for 
holding this very important hearing. I just think it spotlights 
something that is critical for us to deal with on a bipartisan 
basis. Thank you.
    Senator Sullivan. Thank you, Senator Markey, and we 
appreciate your strong support on this.
    I also just want to mention--Ambassador Balton, you talked 
about partnerships. I think--we've been talking about how this 
bill has broad-based bipartisan support. It also has strong, 
strong support across different sectors of advocacy groups, 
environmental groups, industry groups, and in that regard, I'd 
like to submit for the record the statement for the record by 
the American Chemistry Council, and I'm going to submit that 
for the record, without objection.
    [The information referred to follows:]

          Prepared Statement of the American Chemistry Council
    Thank you Chairman Sullivan and Ranking Member Peters for your 
leadership in holding this important hearing. The American Chemistry 
Council represents the leading companies engaged in the business of 
chemistry. ACC member companies apply the science of chemistry to 
create innovative products that make people's lives better, healthier 
and safer, and to help solve society's greatest challenges.
    The business of chemistry is a $768 billion enterprise and a key 
element of the Nation's economy. Over 26 percent of U.S. GDP is 
generated from industries that rely on chemistry, ranging from 
agriculture to oil and gas production, from semiconductors and 
electronics to packaging and vehicles, and from pharmaceuticals to 
residential and commercial energy-efficient building products. Our 
industry directly employs over 810,000 Americans in high-paying jobs, 
and each of those jobs supports an additional 6.3 American jobs in 
other manufacturing industries. Every day, the products of chemistry, 
including many plastics, improve our quality of life while contributing 
to sustainability by allowing us to do more with less. Today's 
chemistry and plastics help to reduce energy use, lower greenhouse gas 
emissions, and significantly reduce waste.
    ACC welcomed the recent introduction of S. 756, the ``Saving Our 
Seas Act,'' by Senators Sullivan, Whitehouse, Peters, Booker, Inhofe, 
Murkowski and Tillis, and appreciates the opportunity to submit a 
statement for the record for today's Senate Commerce Subcommittee on 
Oceans, Atmosphere, Fisheries and Coast Guard hearing entitled ``Marine 
Debris: Efforts on Marine Debris in the Oceans and Great Lakes.'' We 
strongly support reauthorization of NOAA's Marine Debris Program and 
the Act's emphasis on promoting international action to reduce marine 
debris.
    Despite ocean health becoming a global priority, every year more 
and more trash enters the world's waterways. Experts agree that to stem 
the tide of marine litter, we must prevent land-based trash from 
reaching our oceans in the first place. We must do so urgently, with an 
initial focus on parts of the world where waste management systems 
currently are lacking. This includes reducing waste, improving 
collection and sortation, and expanding access to the latest recycling 
and recovery technologies. A study by Jambeck et al., 2015, published 
in Science magazine estimates that 60 percent of the world's trash 
comes from just five rapidly developing countries (China, Indonesia, 
the Philippines, Vietnam and Sri Lanka).<SUP>i</SUP> ACC fully supports 
several features in this much needed bill, including provisions to 
further study land-based waste management solutions and causes of 
marine debris, and increased investment and technical assistance to 
help expand waste management systems in rapidly industrializing 
nations.
---------------------------------------------------------------------------
    \i\ Jenna R. Jambeck et al., Plastic Waste Inputs from Land into 
the Ocean. Science, 13 Feb. 2015, Vol. 347, Issue 6223, pp. 768-771, 
http://science.sciencemag.org/content/347/6223/768
---------------------------------------------------------------------------
    Plastics makers currently have more than 260 projects underway 
around the globe to combat marine litter. Our combined efforts to 
research and prevent marine debris under the ``Declaration of the 
Global Plastics Industry for Solutions on Marine Litter,'' have grown 
each year since 2011, when it was launched. Signed by 70 plastics 
associations in 35 countries, the declaration focuses on education, 
public policy, best practices, plastics recycling and recovery, plastic 
pellet containment, and research.
    In addition, we are working with leaders in regions where plastics 
leakage into the ocean is the highest to ensure that waste management 
systems are a priority and to catalyze investment in those systems. And 
we are working with the United Nations to provide technical expertise 
and a range of commitments under the Global Partnership on Marine 
Litter.
    People around the world rely on plastics in innumerable ways. 
Durable and lightweight, plastics provide important societal benefits 
including energy and resource savings, food waste prevention, improved 
healthcare and consumer protection. But when plastics are improperly 
managed, their full sustainability benefits aren't realized. Solutions 
require the cooperation of industry, civil society and other 
stakeholders to effect meaningful change.
    Companies that use chemistry to make plastics for a range of 
packaging and consumer goods that help us to live more sustainably 
applaud the Saving Our Seas Act, and we are fully committed to the goal 
of keeping waste of all kinds out of our ocean. We look forward to 
continuing our work with the Congress, its Oceans Caucuses, NOAA, the 
State Department and all other stakeholders to enhance international 
engagement in improving land-based waste management practices to 
address marine debris, and the bill's sponsors to bring this 
legislation to the President's desk.

    Senator Sullivan. The first panel is excused. I thought 
that was an excellent, excellent discussion of this important 
issue. We want to thank you for your work on this, and we look 
forward to continuing to work with you on this important issue.
    I would like to call up Dr. Melissa Duhaime, Assistant 
Professor from the University of Michigan, to lead our second 
panel.
    Dr. Duhaime, welcome. Thank you for listening to the first 
panel, and we look forward to hearing your testimony. I believe 
that we will also have Senator Whitehouse joining you to 
testify here in a few minutes. But we'd like you to begin. So, 
please, welcome. Thank you.

            STATEMENT OF MELISSA B. DUHAIME, Ph.D.,

           ASSISTANT PROFESSOR, DEPARTMENT OF ECOLOGY

        AND EVOLUTIONARY BIOLOGY, UNIVERSITY OF MICHIGAN

    Dr. Duhaime. Good morning. I thank Chairman Sullivan and my 
Michigan senator, Ranking Member Peters, and the Subcommittee 
members for inviting me to today's hearing. As a representative 
of the research community, I appreciate being at this table and 
part of these discussions.
    My name is Melissa Duhaime, and I'm a Professor at the 
University of Michigan in the Department of Ecology and 
Evolutionary Biology. I studied at Cornell University, and I 
hold a Doctorate from the Max Planck Institute for Marine 
Microbiology.
    I've worked in ocean and freshwater sciences for over a 
decade, and I've sampled their studied plastics around the 
globe, but most extensively in the Great Lakes over the last 
five years. In that time, we've learned that plastic pollutants 
are widely present in the Great Lakes and impact food supplies 
of aquatic animals but with unknown consequences to human 
health.
    A study out last week reported that almost 80 percent of 
plastic ever produced still remains in landfills or dispersed 
in the environment today. I've heard a lot of analogies today, 
so I'll add one more to that. That represents 10 times the 
biomass of humans on this planet. So for every one of us in 
here, there are 10 more of us out there in plastic. Each year, 
8 million tons of plastic find its way into our oceans. These 
numbers will continue to rise as the global production of 
plastic continues to increase exponentially, as we've heard a 
lot about today.
    These trends are no different in freshwater. While most 
research has focused on the distribution and impacts of marine 
litter, most plastic pollution originates on land. Fresh water 
bodies serve as conduits for the transport of this plastic to 
the oceans, and humans live in closer contact with freshwater. 
Ninety percent of the world's population live only six miles 
from a freshwater body.
    As the largest freshwater system on the planet, the Great 
Lakes hold one-fifth of the world's surface freshwater, and 
these are arguably one of the most valuable national security 
assets. In 2014, my lab led the largest survey to date of Great 
Lakes plastic pollution. We collected and counted surface 
plastic as small as one-tenth of a millimeter from over 100 
samples.
    We found plastic at every site. The sample with the highest 
concentration of plastic from the Detroit River contained 
almost 2 million plastics per square kilometer. That's four 
times higher than yet reported in the surface of the Great 
Lakes and among the highest ever reported in nature. The 
highest concentrations of plastics were found near Great Lakes 
cities, in river plumes, directly at the output of waste water 
treatment plants, and following storm events.
    As with all plastic pollution, the smallest plastics 
dominated our samples. Given this trend, new analytical 
techniques are needed to quantify with higher confidence and 
higher throughput the micro and especially nano-sized plastics, 
of which we know near nothing about but whose health risks 
would be the highest. Nanoplastics have the potential to pass 
cell membranes, delivering toxins and directly interfering with 
metabolic pathways.
    In ongoing laboratory studies at the University of 
Michigan, Lake Michigan Quagga mussels and Chironomid worms 
consume nano-sized plastic, mistaking them for food. These 
organisms, the mussels and these worms, are central to the 
Great Lakes food web. The worms are a food source for all the 
foraging fish, which are then consumed by the greater fish-
eating fishes, such as salmon, trout, bass, and walleye, and 
later by humans.
    In the water, these plastics serve as sponges of persistent 
organic pollutants. Two of these toxins, which are known 
carcinogens that can also interfere with reproduction, PAHs and 
PCBs, were detected on plastic from Lake Sinclair, the Detroit 
River, and near the Cleveland Waste Water Treatment Plant 
output. Also, antibiotics, herbicides, fungicides, and 
insecticides have been detected on plastic in Lake Erie. The 
implications of these findings, particularly for the living 
creatures that eat the plastics, have not yet been explored.
    So, in summary, the basic research has shown that plastic 
is everywhere. It's in all oceans on the planet, in the Great 
Lakes, in remote alpine lakes, in beer and fish sold for human 
consumption, and it's near certain that humans are consuming 
plastic. In the wake of these discoveries, the U.N. has 
declared plastic pollution among the most critical emerging 
environmental issues of our time, and the scientific consensus 
is that plastic pollution must be reduced to avoid risk of 
irreversible ecosystem harm.
    As of today, the direct human health consequences of 
plastic are unknown. Continued basic research really is central 
to our ability to define these environmental risks and the 
economic and public health impacts of plastic pollution. I look 
forward to sharing future findings with you all and continuing 
to be a resource to the Committee.
    I thank you, and I look forward to questions.
    [The prepared statement of Dr. Duhaime follows:]

 Prepared Statement of Melissa B. Duhaime, Ph.D., Assistant Professor, 
 Department of Ecology and Evolutionary Biology, University of Michigan
Disclaimer 
    The findings and perspectives presented in this testimony represent 
the author's own professional assessment as an independent academic 
researcher. They should not be taken to reflect the views of the 
University of Michigan, the author's past affiliations, or funders 
present or past.
Summary Statement
    I wish to thank Chairman Sullivan, and my Michigan Senator, Ranking 
Member Peters, as well as the members of the Subcommittee for inviting 
me to today's hearing. As a representative of the basic research 
community, I appreciate being at this table and part of these 
discussions.
    My name is Melissa Duhaime and I am an assistant professor at the 
University of Michigan in the Department of Ecology and Evolutionary 
Biology. I studied biology at Cornell University and hold a doctorate 
from the Max Planck Institute for Marine Microbiology in Germany.
    I have worked in ocean and freshwater sciences for over a decade, 
studying plastics across the world's oceans, and most extensively in 
the Great Lakes, where I began my career in Michigan 5 years ago--in 
fact, that time marked the very inception of this young research field.
    Plastic hit the consumer market after WWII, when the economics of 
this cheap good and the convenience of a throw away culture took off. 
60 percent of plastic ever produced--5 billion tons--still remains in 
landfills or dispersed in the environment today. This is equivalent to 
10 times the biomass of all humans on Earth. For each of us in this 
room, there are 10 of us made of plastic out there. Each year, 5-13 
million tons of plastic enter the oceans. These numbers will continue 
to rise the global production of plastic goods continues to increase 
exponentially. The trends are no different in the Great Lakes.
    In 2014, we carried out the largest survey to date of Great Lakes 
surface plastic pollution, traversing Lakes Superior, Huron, St. Clair, 
and Erie. We collected surface-floating plastic down to one-tenth of a 
millimeter. We found plastic at every site sampled. The sample with the 
highest total concentration of plastic (in the Detroit River) contained 
almost 2 million particles per km, 4-times higher than yet reported in 
the surface of the Great Lakes.
    The highest concentrations of plastic were found near populated 
Great Lakes cities, in river plumes, directly at the effluent of 
wastewater treatment plants, and following storm events.
    As with all plastic pollution, the smallest plastics dominated all 
samples. Given this trend, it is essential that more attention be paid 
to the smallest size classes of plastic, especially the nanoscale, of 
which we know near-nothing about, but whose health risks will be 
highest.
    The vast majority of plastic detected with secondary plastic 
fragments, broken down from larger pieces--not the microbeads reported 
to dominate in the first study of Great Lakes plastic.
    Plastic floating in water serves as sponges of toxic persistent 
organic pollutants (or ``POPs'') that are consumed when plastics are. 
Two carcinogens, polyaromatic hydrocarbons (PAHs) and polychlorinated 
bisphenyls (PCBs), were detected on plastic from Lake St Clair, the 
Detroit River plume, and Cleveland WWTP effluent. Also, antibiotics, 
herbicides, fungicides, and insecticides have been detected on plastic 
in Lake Erie. The implications of these of findings have not yet been 
explored.
    In a U-M study of fish and mussels collected from the Great Lakes, 
roughly one-quarter of all Great Lakes fishes and one-third of bivalves 
examined contained plastic fibers in their stomachs.
    In laboratory studies, Lake Michigan Quagga mussels and Chironomid 
worms consume nano-sized plastic, mistaking them for food. These 
organisms, especially the worms, are central to the Great Lakes food 
web. They are a food source for all the foraging fish, which are then 
consumed by greater ``fish-eating fishes'', such as salmon, trout, 
bass, and walleye.
    Research is needed to define the effects of consumption and to 
determine the economic and public health impacts of plastic pollution 
in the Great Lakes.
    In summary, basic research has shown the plastic is everywhere, in 
all oceans on the planet, remote alpine lakes, in the Great Lakes, and 
in beer and fish sold for human consumption. It is near certain that 
humans are consuming plastic.
    In the wake of these discoveries, the United Nations has declared 
plastic pollution among the most critical emerging environmental issues 
of our time. The scientific consensus is that plastic pollution must be 
reduced to avoid the risk of irreversible ecosystem harm.
    The direct human health consequences of plastic pollution are 
unknown, but this is the essential frontier of basic research.
    As put by environmental toxicologist, David Sedlak, ``Although we 
are all responsible for microplastics in the environment, getting the 
entire world to rethink the way it uses synthetic polymers would be a 
long, arduous process requiring compelling evidence of severe 
environmental risks.''
    Basic research is critical to our ability to understand the extent 
and implications of this issue. I look forward to sharing future 
findings with you and continuing to be a resource to the Committee. I 
look forward to your questions now and in the future. Thank you.
                  Plastic Pollution in the Great Lakes
I. Introduction
    The accumulation of plastic debris in nature is ``one of the most 
ubiquitous and long-lasting recent changes to the surface of our 
planet.'' \1\ Since plastic hit the consumer markets in the 1950s, 60 
percent of plastic produced--4.9 billion metric tons--still remains in 
landfills or is inadvertently dispersed in the environment.<SUP>a</SUP> 
That is 10 times more than the biomass of humans on the planet. Each 
year, 5-13 million tons of plastic find its way into our oceans.\2\ In 
the absence of mechanisms to incentivize improved waste management and 
behavior change, this number will continue to rise, reflecting the 
exponentially increasing global production of plastic goods.\3\
---------------------------------------------------------------------------
    \a\ https://www.nytimes.com/2017/07/19/climate/plastic-pollution-
study-science-advances.html
?mcubz=0
---------------------------------------------------------------------------
    Aquatic organisms ingest plastic pollutants,<SUP>4,5</SUP> which 
results in energetic and fitness costs <SUP>6,7</SUP> and other morbid 
impacts.\8\ Microscopic plastic is found in fish and shellfish sold for 
human consumption at seafood markets around the world, including in 
Europe \9\ and in the U.S.\10\ There is a high likelihood that humans 
are consuming this plastic. The health consequences of this are 
unknown.
    In the wake of these discoveries, the United Nations has declared 
plastic pollution among the most critical emerging environmental issues 
of our time.\11\ The scientific consensus is that plastic pollution 
must be reduced to avoid the risk of irreversible ecosystem harm.\12\
    While most research has focused on the distribution and impacts of 
marine litter, most plastic pollution originates on land.\13\ As such, 
freshwater bodies serve as conduits for the transport of plastic litter 
to the ocean. Humans live in close contact with freshwater. 90 percent 
of the world's population lives 6 miles from a freshwater body.\14\
    Recently, plastic has been documented in the Great Lakes at some of 
the highest concentrations seen on the planet. Yet, too little is known 
about the fate of this plastic and its role in ecosystem dynamics to 
assess environmental risk and predict the impacts on one fifth of the 
world's surface freshwater and arguably one of our most valuable 
national security assets.
    This discussion focuses on recent findings led by our team at the 
University of Michigan regarding plastic pollution in the Great Lakes. 
It (1) reports the quantification, distribution, and modeled transport 
of Great Lakes plastic debris, (2) describes the carcinogenic toxins 
that hitch a ride on Great Lakes plastic, (3) demonstrates that 
organisms central to the Great Lakes food web consume plastic, and (4) 
explores new frontiers in the detection of nano-sized plastic. The 
report concludes by highlighting recommendations for future research 
directions. These aim at addressing current knowledge gaps in our 
ability to assess environmental risks of this pervasive, persistent 
pollutant--in the Great Lakes and beyond.
II. Plastic Pollution In The Great Lakes
    In 2014, we carried out the largest survey to date of Great Lakes 
surface plastic pollution, quantifying plastic in over 100 samples 
collected across Lakes Superior, Huron, St. Clair and Erie.\15\ With 
funds from the University of Michigan Water Center and Erb Family 
foundation, as well as a generous donation of time, research vessel, 
and fuel by citizen scientist, David Brooks (resident of Chelsea, MI), 
we traversed these lakes and collected surface-floating plastic down to 
100 mm--one-tenth of a millimeter, smaller than a period on this page.
    We have worked for four years with NOAA's Marine Debris Program to 
develop an Action Plan for the Great Lakes. The Great Lakes plastic 
research community is incredibly collaborative and connected, in large 
part due to the organizing efforts of NOAA's Marine Debris Program in 
the region. I have worked with the International Joint Commission to 
establish recommendations on how to address the problem of plastic 
pollution in our Great Lakes. Our data have contributed to follow-up 
research programs and private funding, remediation action plans, and 
new knowledge disseminated to the public through outreach initiatives 
around the Great Lakes. Our work has been published in peer-reviewed 
journals <SUP>15-17</SUP> and key elements are summarized below.
A. Abundance and Distribution
    While floating plastic bottles and bags, styrofoam coolers, straws, 
old tires, and cigarette butts disrupt our intrinsic connection with 
``pristine'' natural spaces, most Great Lakes plastic is small, nearly 
invisible ``microplastic'' (<5 millimeters in size).



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Figure 1. A calm and seemingly clean Lake Erie (left), photo 
credit, Melissa Freeland; particles collected following a storm event 
from the surface of Lake Erie at the Cleveland wastewater treatment 
plant effluent site (right), many of which proved to be 
``microplastic'' (defined as plastic <5 mm in size).

    What we collected in our field survey were not the pristine samples 
we had collected previously across the world's oceans, which consisted 
primarily of plastic and little else. Rather, with each surface trawl, 
we pulled up pounds and pounds of biomass--such as algae, insect 
larvae, sticks, and leaf litter. Enmeshed in this was microscale 
plastic trash (Figure 2).



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. From \15\. Samples from Great Lakes plastic survey of 
2014 at various stages of processing, including examples of different 
shape classes. Arrows indicate plastic amidst co-sampled nonplastic 
organic matter; blue: fragment, dark red: line, yellow: nurdles, cyan: 
sphere/bead, brown: fiber. (A) Bulk sample directly upon retrieval from 
surface net on a stack of a series of sieves. This sample contained an 
abundance of algal biomass. (B) Bulk sample drying on a 53 mm mesh net. 
(C) Sample after enzymatic processing, which included an incubation in 
hydrogen peroxide that bleached much of the non-plastic organic matter. 
This bleaching aided in differentiating plastic (tended to retain 
color) from non-plastic (prone to bleaching) particles. (D) Examples of 
plastic of sphere class; zoomed in subset of sample in (B). (E) 
Smallest size fraction (106-1,000 mm) after hydrogen peroxide 
treatment. Note colored plastic fibers (brown arrows) enmeshed in mass 
of natural fibers bleached white from hydrogen peroxide treatment. (F-
H) Examples of plastic of fragment, film and line shape classes, 
respectively; ruler markings are in cm units. (J,I) Examples of plastic 
of paint chip and fiber shape classes, respectively; grid squares are 
in 5 mm units.

    We found plastic at every site sampled in this Great Lakes study 
(Figure 3). The sample with the highest total concentration of plastic 
(in the Detroit River) contained almost 2 million particles 
km,<SUP>-2</SUP>, a 4-fold higher concentration than yet reported in 
the surface of the Great Lakes.<SUP>18,19</SUP>


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. Maps of plastic concentrations across the lakes sampled; 
magnitude of concentration is depicted by size of circle around trawl 
location. Note, fiber counts are not included in these figures, as 
their quantification is error prone. (A) Mapped counts of plastic 
litter >4,750 mm. (B) Mapped counts of plastic litter 1,000-4,750 mm. 
(C) Mapped counts of plastic litter 106-1,000 mm. (D) Total mapped 
counts for the stations where all three size classes were quantified.

    Across our Great Lakes study and in nearly all studies to date, the 
smallest plastics dominate. The vast majority of plastic counted was <1 
mm in size (Figure 4A), regardless of water body or types of stations 
sampled. Smaller plastic particles stay at the water surface longer 
than larger particles of the same composition and shape 
<SUP>20,21</SUP> and are more readily consumed by smaller organisms in 
aquatic food webs.\22\ The larger surface area to volume ratios of 
these small plastics increases their potential to deliver toxic 
chemicals (discussed below) to the organisms that consume 
them.<SUP>1,23</SUP> Given this trend, it is essential that future 
studies document sub-millimeter (nanoscale) plastics and develop 
innovative high-throughput solutions to capture and quantify nanoscale 
plastics. The ecosystem risks of nanoscale plastics may be highest due 
to subcellular effects \24\--but, due to technical limitations, they 
have yet to be identified or quantified in natural systems. We have 
begun addressing this issue (see section on Organismal Impacts, below).




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





    Figure 4. (A) Boxplots depicting the means and spreads of plastic 
counts by particle size class (from smallest to largest, left to 
right). (B) Boxplots depicting the means and spreads of plastic counts 
by size class, station type, and water body: Lake Superior, Lake Huron, 
Lake St. Clair, the Detroit River, Lake Erie, and the Niagara River.

    The highest concentrations of plastic were found near populated 
urban cities, in river plumes, directly at the effluent of wastewater 
treatment plants (Figures 3-4), and following storm events. The 
Cleveland, OH, sample was collected at a WWTP effluent site immediately 
following a massive rainstorm (Figure 1, right panel; Figure 3A). We 
suspect we captured a combined sewage overflow event, whereby plastic 
in runoff that bypassed the treatment plant was delivered to the lake 
with no treatment.
    Overall, these findings support previous reports of a correlation 
between plastic concentrations and proximity to urban centers in the 
Great Lakes.\25\ Attributes that are likely to contribute to elevated 
plastic concentrations in urban vs. non-urban locales include higher 
population densities,\2\ increased atmospheric inputs (including 
plastic; \26\), and increased areas of impervious substrate.\25\ 
Increasing the degree of pervious substrate in watersheds, such as the 
implementation of green infrastructure catchments, should be explored 
as an effective measure to capture plastic debris in runoff and to 
reduce loads to waterways. As the number of storm events is expected to 
increase with a changing climate,\27\ such innovations are timely to 
buffer preventatively our freshwater systems from being inundated with 
stormwater-delivered debris.
    Most Great Lakes plastic appears to be ``secondary microplastics'' 
broken down from larger pieces of debris (Fig. 5). This counters the 
first report of plastic from the Great Lakes that reported the majority 
to be in the form of spherical plastic microbeads,\18\ which have since 
been banned from rinse-off cosmetics.\28\




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 5. Stacked barplot depicting the relative abundances of 
different shape classes amongst plastic from each size class. The bar 
to 100 percent for each size class represent the relative abundance of 
different shape classes when fibers were not included in the total 
counts; the portion above 100 percent represents the relative abundance 
of fibers in the total counts.

    Our Great Lakes study was the first survey of freshwater plastic 
litter to address variability in counts by conducting replicate trawls 
at each of 38 stations. With this replication, we were able to 
determine that the accuracy of a single trawl at one station was quite 
low. Repeated trawls at the same location can vary in precision by up 
to 3-fold. Evidence suggests that this variability is due to 
undersampling. In other words, to get reliable data, we must sample 
multiple times at each site and each sample must be larger.
    Yet, across this field of research, replication is nearly never 
performed due to the massive investment that would be needed for data 
collection. Currently the most common method for quantification of 
plastic depends near-exclusively on visual sorting and counting.
    Analytical approaches have been employed that rely on spectroscopic 
techniques (e.g., fourier transform infrared spectroscopys--FTIR, Raman 
spectroscopy) to confirm whether particles are known synthetic 
polymers. But as of yet, these approaches are low-throughput and are 
limited by our inability to identify complex (often proprietary) 
mixtures of polymers and dyes outside the standard known polymer 
classes.
    The development of analytical techniques for high throughput, high 
confidence plastic counts is critically needed. Such advancements will 
pave the way for accelerated data collection, down to nano-sized 
particle classes, and will drastically improve the reliability and 
value of future data generated.
B. Modeled Transport
    In the absence of an inexpensive, rapid, and accurate method to 
quantify plastic debris on large temporal and spatial scales, 
hydrodynamic models were applied to predict the plastic distribution 
and transport of plastic in one of the Great Lakes, Lake Erie (D. 
Beletsky, R. Beletsky; U-M Cooperative Institute for Great Lakes 
Research; NOAA Great Lakes Environmental Research Labs; Ann Arbor, MI).
    Our plastic transport model predicted habitats along the southern 
coast of Lake Erie to be most affected by plastic pollution (Figure 
6).\15\




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 6. (A) The modeled distribution of neutrally buoyant 
particles in Lake Erie at the end of month-long simulated transport in 
June, July, and August for 6 years. For visual simplicity, 8 of the 29 
sources (influents) are depicted: the Raisin Rv. (magenta), Detroit Rv. 
(cyan), Kettle Rv. (purple), Grand Rv. (turquoise), Chautauqua Rv. 
(blue), Conneaut Rv. (orange), Cleveland WWTP (red), and Vermillion Rv. 
(green). (B) Mean transport vectors summarizing the positions of all 
particles at the end of month at each of the same eight representative 
sources (similarly colored coded). The six vectors per source represent 
mean transport for each of the 6 years. The 6-year mean vector is shown 
in black at each input.

    In most months, rather than moving offshore, the model predicted 
longshore transport from coastal sources (Figure 6A). This model 
indicates that future plastic pollution mitigation and management 
efforts in Lake Erie should focus on its southern shore and downstream 
of urbanized areas. Extending this plastic transport model to the other 
four Great Lakes will similarly inform future efforts across this 
critical watershed.
C. Plastic-adsorbed Toxins
    Plastic floating in water serve as veritable sponges of toxic 
persistent organic pollutants (POPs). Plastic additives leach from 
plastics as they degrade (e.g., phthalates, BPA), induce toxic effects 
in aquatic organisms,\29\ and bioaccumulate in plastic-ingesting 
organisms <SUP>4,7</SUP> with unknown consequences.
    Two carcinogens, polyaromatic hydrocarbons (PAHs) and 
polychlorinated bisphenyls (PCBs), were detected on plastic samples 
collected from Lake St Clair, the Detroit River plume, and Cleveland 
WWTP effluent. PAHs were detected on plastics at concentrations ranging 
from 3500-17,000 ng/g; PCBs ranged from 4-99 ng/g (L Rios Mendoza; U-W 
Superior). The levels of PAHs measured on individual pieces of surface-
floating plastic are 10 to 100 times higher than concentrations 
considered hazardous to sediment-dwelling organisms (6-150 ng/
g<SUP>b</SUP>). Concentrations of PCBs measured on plastic are on the 
order measured in plankton in the Great 
Lakes.<SUP>[Hornbuckle 2006]</SUP> Both PAHs and PCBs bioaccumulate 
with the potential to biomagnify, meaning that due to their persistence 
in the environment and the inability of some organisms to metabolize 
the compounds, toxins can be passed to consumers in prey. 
Biomagnification happens across the food web for PCBs and only in low 
levels (algae and lower invertebrates) for PAHs. This results in 
concentrations of PCBs in apex predators at the top of the food chain 
higher than would be expected based on transfer from water alone.
---------------------------------------------------------------------------
    \b\ http://www.ukmarinesac.org.uk/activities/water-quality/
wq8_40.htm
---------------------------------------------------------------------------
    Beyond the suite of POP toxins most plastic researchers screen for, 
researchers at the University of Michigan conducted the first survey of 
non-target toxins on plastics in the Great Lakes. Antibiotics, 
herbicides, fungicides, and insecticides were identified on plastic in 
Lake Erie (K Wigginton; U-M Civil and Environmental Engineering). The 
implications of these of findings have not yet been explored.
D. Organismal and Food Web Impacts
    In a study of fish and mussels collected from the Great lakes, 
roughly one-quarter of all Great Lakes fishes and one-third of bivalves 
examined contained plastic fibers in their stomach contents (Larissa 
Sano, University of Michigan). Of the particles documented in the 
fishes, 100 percent were fibers. A systematic survey of the incidence 
and population-level impacts of consumption of micro-and nanoplastics 
across the Great Lakes biota is needed.
    In collaboration with the Banaszak Holl Lab at the University of 
Michigan and the San Francisco Estuary Institute, with funds from the 
Gordon and Betty Moore Foundation and NSF-REU program, we have 
developed and applied a new method to identify nanoscale plastic 
pollution (Figure 7). This method combines atomic force microscopy 
(AFM) with infrared spectroscopy (IR) create infrared spectra of 
individual micro-and nanoplastics at the individual particle-level.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 7. (A) A monolayer of beads visualized using AFM. (B) Red 
dot indicates polystyrene bead from which spectrum generated in panel C 
was obtained. (C) IR spectrum indicating characteristic peaks of 
polystyrene at 1452 cm<SUP>-1</SUP> and 1492 cm<SUP>-1</SUP>. Data 
generated by Rachel Merzel, Banaszak Holl Lab (University of Michigan).

    We have confirmed the uptake of nanoplastics by Great Lakes filter 
feeders, a first step in defining the impact of their consumption on 
the Great Lakes food web.
    Quagga mussels collected from Lake Michigan were fed fluorescently 
dyed nanoplastics the same size and at roughly the same concentration 
as their algal food source (0.01 and 0.1 picomolar; Figure 8). The 
mussels ingested the nanoplastic in a manner analogous to food 
consumption. The patterns observed in the gill tissue (Figure 8C) 
follow those of normal food accumulation, moving from the gills to the 
intestines. Mussels have internal mechanisms to reject particles they 
do not intend to digest. These data suggest the nanoplastics are not 
rejected by Lake Michigan Quagga mussels, but rather are mistaken for 
food. When smaller beads were used (200 nm), they also were observed in 
the gills and digestive tract. The Banaszak Holl lab will confirm 
whether such small beads are able to pass directly across cell 
membranes, which would pose a more lethal threat.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 8. (A) Image<SUP>c</SUP> of mussel filter feeding. Plastic 
and food (plankton) enter the mussel in inhaled water, waste exits in 
exhaled water. (B) Diagram<SUP>d</SUP> of mussel anatomy. Note gills, 
inhalent and exhalent siphons, and intestines. (C) Microscopy images of 
internal structures of Lake Michigan Quagga mussels after being fed 
their algal food source along with 0.1 picomolar (top) and 0.01 
picomolar (bottom) fluorescent plastic spheres. Plastic particles are 
the bright white elements of the image. Images from Lauren Purser, 
Banaszak Holl Lab (University of Michigan, NSF-REU). Recently collected 
data from currently unpublished work.
---------------------------------------------------------------------------
    \c\ http://www.molluscs.at/bivalvia/index.html?/bivalvia/main.html
    \d\ https://7salemanimalkingdom.wikispaces.com/Mollusks

    Benthic Chironomid worms that live in the Lake Michigan sediment 
with the mussels also ingest the 200 nm and 2000 nm nanoplastics and at 
concentrations greater than those observed in the mussels (Figure 9).


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 9. (A) Microscopy images of Lake Michigan Chironomid worms 
in tank with Quagga mussels exposed to fluorescent plastic spheres. 
Plastic particles are the bright white elements of the image. Images 
from Lauren Purser, Banaszak Holl Lab (University of Michigan, NSF-
REU). Recently collected data from currently unpublished work.

    Chironomids, as well as Quagga mussels, are central to the Lake 
Michigan food web. They are consumed by all foraging fish that live in 
the lake (Figure 10)--and, in fact, most of the Great Lakes. Trophic 
transfer of consumer plastic has been confirmed.\31\ As such, owing to 
their resistance to degradation, nanoplastics consumed by these Great 
Lakes mussels and worms have the potential to move up the Great Lakes 
food web to the high value piscivorian fishes (``fish-eating fishes''), 
such as salmon, trout, bass, and walleye (Figure 10).


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 10. Lake Michigan food web. Prepared by NOAA Great Lakes 
Environmental Research Laboratory.<SUP>e</SUP> Note the yellow stars 
indicating the Quagga mussels and Chironomid worms highlighted in the 
research shared above.
---------------------------------------------------------------------------
    \e\ https://www.glerl.noaa.gov/res/projects/food_web/food_web.html

    Other researchers have confirmed that ingesting plastic in place of 
food results in reduced biomass; plastic lacks nutrients for growth.\7\ 
Ingested plastic nanoparticles have led to changed foraging behavior 
and organ function in fish.\32\ It is yet to be confirmed what the 
effects of plastic consumption are on the population-level fitness of 
Great Lakes fishes. This work is needed to determine the economic and 
public health impacts of plastic pollution in the Great Lakes.
III. Conclusion
    As the largest freshwater system on the planet, the Great Lakes 
hold 20 percent of the world's surface freshwater. With this study, 
plastic pollution has now been documented down to the smallest size 
class reported to date. This led to the discovery of plastic 
concentrations up to 2 million particles per square kilometer, the 
highest reported levels in the Great Lakes and possibly any surface 
water ecosystem. These high numbers can be attributed to high nearshore 
population densities, a feature unique to inland waterways that does 
not similarly influence remote ocean basins, and the long hydraulic 
residence time of some of the Great Lakes (3-100s of years, depending 
on the lake). Given this time and the recalcitrance of plastic to 
degradation, fragments of some of the first plastic ever produced for 
the consumer market are certainly present in the Great Lakes still 
today. This scenario is likely representative of lakes worldwide, which 
account for 87 percent of the planet's surface freshwater and have an 
average residence time of 50-100 years<SUP>f</SUP>--indeed spanning the 
introduction of plastics to the consumer market.
---------------------------------------------------------------------------
    \f\ http://journal.frontiersin.org/article/10.3389/
fenvs.2017.00045/full#Note4
---------------------------------------------------------------------------
    We know plastic is there in our critical freshwater. What is next? 
``Although we are all responsible for microplastics in the environment, 
getting the entire world to rethink the way it uses synthetic polymers 
would be a long, arduous process requiring compelling evidence of 
severe environmental risks (D. Sedlak,\33\ included with this 
report).'' Critical to this process and the advancement of this 
research field are (1) the development of analytical techniques for 
high-throughput, accurate detection and quantification of micro- and 
nano-plastic, (2) development of hydrodynamic models to guide (3) 
targeted research surveys and experiments, to develop (4) a global 
plastic mass balance transport model (``Where does it comes from? Where 
does it go?''), (5) determination of food web impacts, and ultimately 
(6) the risk to humans. These research outputs will define further the 
ecosystem and public health risks plastic pollution pose to our vital 
freshwater systems and inform the needed policy, mitigation, and 
prevention initiatives of the future.
Works Cited
    1. Barnes, D. K., Galgani, F., Thompson, R. C. & Barlaz, M. 
Accumulation and fragmentation of plastic debris in global 
environments. Philos Trans R Soc Lond B Biol Sci 364, 1985-1998 (2009).
    2. Jambeck, J. R., Geyer, R., Wilcox, C., Siegler, T. R., et al. 
Marine pollution. Plastic waste inputs from land into the ocean. 
Science 347, 768-771 (2015).
    3. PlasticsEurope: Association of Plastics Manufacturers Plastics-
The Facts 2014/2015. (2015).
    4. Boerger, C. M., Lattin, G. L., Moore, S. L. & Moore, C. J. 
Plastic ingestion by planktivorous fishes in the North Pacific Central 
Gyre. Mar Pollut Bull 60, 2275-2278 (2010).
    5. Foekema, E. M., De Gruijter, C., Mergia, M. T., van Franeker, J. 
A., et al. Plastic in north sea fish. Environ Sci Technol 47, 8818-8824 
(2013).
    6. Besseling, E., Wegner, A., Foekema, E. M., Van Den Heuvel-Greve, 
M. J. & Koelmans, A. A. Effects of microplastic on fitness and PCB 
bioaccumulation by the lugworm Arenicola marina (L.). Environmental 
science & technology 47, 593-600 (2012).
    7. Wright, S. L., Thompson, R. C. & Galloway, T. S. The physical 
impacts of microplastics on marine organisms: a review. Environ Pollut 
178, 483-492 (2013).
    8. Rochman, C. M., Hoh, E., Kurobe, T. & Teh, S. J. Ingested 
plastic transfers hazardous chemicals to fish and induces hepatic 
stress. Sci Rep 3, 3263 (2013).
    9. Van Cauwenberghe, L. & Janssen, C. R. Microplastics in bivalves 
cultured for human consumption. Environ Pollut 193, 65-70 (2014).
    10. Rochman, C. M., Tahir, A., Williams, S. L., Baxa, D. V., et al. 
Anthropogenic debris in seafood: Plastic debris and fibers from 
textiles in fish and bivalves sold for human consumption. Sci Rep 5, 
14340 (2015).
    11. UNEP Marine plastic debris and microplastics--Global lessons 
and research to inspire action and guide policy change. United Nations 
Environment Programme, Nairobi (2016).
    12. Rochman, C. M., Browne, M. A., Underwood, A. J., Franeker, J. 
A., et al. The ecological impacts of marine debris: unraveling the 
demonstrated evidence from what is perceived. Ecology 97, 302-312 
(2016).
    13. GESAMP (IMO/FAO/UNESCO-IOC/UNIDO/WMO/IAEA/UN/UNEP Joint Group 
of Experts on the Scientific Aspects of Marine Environmental 
Protection) Proceedings of the GESAMP International Workshop on 
Microplastic particles as a vector in transporting persistent, bio-
accumulating and toxic sub-stances in the ocean. GESAMP Reports and 
Studies 82, 1-68 (2010).
    14. Kummu, M., De Moel, H., Ward, P. J. & Varis, O. How close do we 
live to water? A global analysis of population distance to freshwater 
bodies. PLoS One 6, e20578 (2011).
    15. Cable, R., Beletsky, D., Beletsky, R., Locke, B. W., et al. 
Distribution and modeled transport of plastic pollution in the Great 
Lakes, the worlds largest freshwater resource. Frontiers in 
Environmental Science 5, 40 (2017).
    16. Hankett, J. M., Collin, W. R., Yang, P., Chen, Z. & Duhaime, M. 
B. Low-volatility Model Demonstrates Humidity Affects Environmental 
Toxin Deposition on Plastics at a Molecular Level. Environ Sci & 
Technol 50, 1304-1312 (2016).
    17. Michielssen, M., Michielssen, E., Ni, J. & Duhaime, M. Fate of 
microplastics and other small anthropogenic litter (SAL) in wastewater 
treatment plants depends on unit processes employed. Environ Sci: Water 
Res Technol (2016).
    18. Eriksen, M., Mason, S., Wilson, S., Box, C., et al. 
Microplastic pollution in the surface waters of the Laurentian Great 
Lakes. Marine Pollution Bulletin 77, 177-182 (2013).
    19. Mason, S. A., Kammin, L., Eriksen, M., Aleid, G., et al. 
Pelagic plastic pollution within the surface waters of Lake Michigan, 
USA. Journal of Great Lakes Research 42, 753-759 (2016).
    20. Khatmullina, L. & Isachenko, I. Settling velocity of 
microplastic particles of regular shapes. Mar Pollut Bull (2016).
    21. Kowalski, N., Reichardt, A. M. & Waniek, J. J. Sinking rates of 
microplastics and potential implications of their alteration by 
physical, biological, and chemical factors. Mar Pollut Bull 109, 310-
319 (2016).
    22. Wagner, M., Scherer, C., Alvarez-Munoz, D., Brennholt, N., et 
al. Microplastics in freshwater ecosystems: what we know and what we 
need to know. Environmental Sciences Europe 26, 1-9 (2014).
    23. Teuten, E. L., Saquing, J. M., Knappe, D. R., Barlaz, M. A., et 
al. Transport and release of chemicals from plastics to the environment 
and to wildlife. Philos Trans R Soc Lond B Biol Sci 364, 2027-2045 
(2009).
    24. Syberg, K., Khan, F. R., Selck, H., Palmqvist, A., et al. 
Microplastics: addressing ecological risk through lessons learned. 
Environ Toxicol Chem 34, 945-953 (2015).
    25. Baldwin, A. K., Corsi, S. R. & Mason, S. A. Plastic Debris in 
29 Great Lakes Tributaries: Relations to Watershed Attributes and 
Hydrology. Environ Sci Technol 50, 10377-10385 (2016).
    26. Dris, R., Imhof, H., Sanchez, W., Gasperi, J., et al. Beyond 
the ocean: contamination of freshwater ecosystems with (micro-) plastic 
particles. Environmental Chemistry 12, 539-550 (2015).
    27. IPCC Managing the risks of extreme events and disasters to 
advance climate change adaptation (Cambridge University Press, 2012).
    28. Microbead-Free Waters Act of 2015 (USA). Available from: 
https://www.congress.gov/bill/114th-congress/house-bill/1321/all-info.
    29. Oehlmann, J., Schulte-Oehlmann, U., Kloas, W., Jagnytsch, O., 
et al. A critical analysis of the biological impacts of plasticizers on 
wildlife. Philos Trans R Soc Lond B Biol Sci 364, 2047-2062 (2009). [NO 
STYLE for: Hornbuckle 2006].
    31. Setala, O., Fleming-Lehtinen, V. & Lehtiniemi, M. Ingestion and 
transfer of microplastics in the planktonic food web. Environ Pollut 
185, 77-83 (2014).
    32. Mattsson, K., Ekvall, M. T., Hansson, L. -A., Linse, S., et al. 
Altered Behavior, Physiology, and Metabolism in Fish Exposed to 
Polystyrene Nanoparticles. Environ Sci Technol 49, 553-561 (2015).
    33. Sedlak, D. Three Lessons for the Microplastics Voyage. Environ 
Sci Technol 51, 7747-7748 (2017).

    ADDENDUM 1: Recent editorial on ``lessons learned from plastic 
reearch'' by David Sedlak, Editor-in-Chief of Environmental Science and 
Technology, the premier environmental science journal with focus on 
emerging contaminants of concern. Sedlak, D. Three Lessons for the 
Microplastics Voyage. Environ Sci Technol 51, 7747-7748 (2017).

    ADDENDUM 2: Publication from University of Michigan that culminated 
from the bulk of the results discussed in above report. Cable, R., 
Beletsky, D., Beletsky, R., Locke, B. W., et al. Distribution and 
modeled transport of plastic pollution in the Great Lakes, the worlds 
largest freshwater resource. Frontiers in Environmental Science 5, 40 
(2017).
                                 ______
                                 
                               Addendum 1

      Environmental Science & Technology--Published: July 10, 2017

               Three Lessons for the Microplastics Voyage

    Whether it is DDT, perchlorate, perfluoroalkyl substances, or 
pharmaceuticals, the process through which a contaminant emerges 
follows a predictable pattern. First, researchers stumble upon a 
previously unknown contaminant or observe effects on the health of 
humans or wildlife that they cannot readily explain. Driven by 
curiosity and a desire to protect the environment, the researchers, 
operating on a shoestring budget, publish a paper documenting their 
initial findings. The attention that their research receives results in 
a wave of papers on detection, occurrence and toxicology of a now-
emerging contaminant.
    About a decade after the first wave of papers appears the emerging 
contaminant reaches a crossroads. If the research does not seem to 
justify action, the funding tide ebbs and the community moves onto 
other issues. But if there is sufficient ground for concern, a second 
wave of research starts, with an expansion into policy-relevant 
questions related to establishing regulatory standards, implementing 
treatment technologies, and reformulating products to minimize future 
releases.
    Microplastics are our newest emerging contaminant. Although 
scientists have expressed concerns about the impacts of plastic 
pollution for over four decades, microplastics did not become emerging 
contaminants until 2007. The issue gained momentum about five years 
later, when researchers reported the presence of microbeads from 
consumer products in wastewater effluent-receiving waters. Facing 
negative publicity for a nonessential ingredient, leading manufacturers 
voluntarily eliminated microbeads and accepted the decision to ban them 
in the United States in 2015. Now that we are into the second wave of 
research that will determine whether or not the remaining sources of 
microplastics will be controlled, it is worth considering lessons 
learned from other emerging contaminants.
    The first lesson is that occurrence data and laboratory toxicology 
studies alone are not enough to bring about action when the effects 
being studied do not involve humans. When it comes to wildlife, adverse 
effects must be documented in the field. In the case of DDT, the direct 
link between tissue levels and reproductive failure of bald eagles and 
brown pelicans turned the tide on a product that was considered 
essential to farmers. In contrast, the widespread occurrence of 
polybrominated diphenyl ethers (PBDEs) and perfluoroalkyl substances in 
polar bears garnered plenty of media attention, but without field 
evidence of adverse effects, regulatory actions were hard to justify. 
For microplastics, the public might not be as motivated if the adverse 
effects are limited to decreased feeding by microscopic creatures 
living near the bottom of the food web. Furthermore, waterways with the 
highest concentrations of microplastics are also subject to other 
pollutant stresses that could make it difficult to attribute 
compromised wildlife health to microplastics. To prove adverse effects 
of microplastics under realistic conditions, dosing of entire lakes, 
using methods similar than those used to document the effects of 
ethinyl estradiol on fish populations, might be needed. Because the 
addition of microplastics to pristine ocean waters would be 
impractical, such large-scale manipulations would require researchers 
to devise clever ways of removing microplastics from already 
contaminated marine waters.
    Turning our attention to people, the second lesson is that 
contaminants are more likely to emerge if there is a reasonable 
possibility that their use is endangering human health. For example, 
when PBDEs were reported in human serum and breast milk, regulators 
took action before health effects were documented. As long as we 
consider human health as our top environmental priority, occurrence 
data and toxicology studies suggesting that contaminant concentrations 
are approaching a level of concern can bring about action. In the case 
of microplastics, human health risks have been posited, but the 
complexities associated with microplastic uptake as well as the 
simultaneous exposure of people to a myriad of other particles are 
going to challenge researchers seeking to assess the health risks of 
microplastics. Furthermore, one of the human health concerns that is 
frequently discussed--namely that microplastics expose people to 
lipophilic chemicals--is likely to be seen as an issue that is best 
handled by controlling the lipophilic chemicals rather than the media 
that increase their uptake.
    The third lesson is that the likelihood that society will control 
an emerging contaminant is inversely proportional to the cost of 
solving the problem as well as the degree to which blame can be affixed 
on a small number of companies. The first part of this lesson is 
intuitive: expensive regulatory action requires a high threshold of 
evidence. Replacing microbeads in facial scrubs is a lot easier than 
rethinking the thousands of uses of plastics in the economy. The second 
part is less obvious but just as relevant: product bans and 
requirements to clean up contamination are more likely when only a few 
companies manufacture and use the chemical. For example, Monsanto, 
Westinghouse, and General Electric spent over $10 billion cleaning up 
PCB-contaminated sites. In contrast, the hundreds of companies that 
mine and use copper in construction materials, electronics and brake 
pads have not funded upgrades to sewage treatment plants or the 
installation of stormwater treatment systems in places where waterways 
are contaminated with the metal.
    If it turns out that a specific use of plastic accounts for a 
disproportionate share of the microplastics detected in the 
environment, action is more likely. As long as researchers focus on a 
suite of sources that would be nearly impossible to eliminate, control 
options implemented in the near term are likely to be restricted to 
relatively inexpensive practices (e.g., litter control campaigns, 
marketing of biodegradable plastics to eco-friendly consumers) that 
might ultimately have little impact. Although we are all responsible 
for microplastics in the environment, getting the entire world to 
rethink the way it uses synthetic polymers would be a long, arduous 
process requiring compelling evidence of severe environmental risks.
    The science and engineering of microplastics will be different from 
that of the chemical contaminants that preceded them. Nevertheless, we 
should learn our emerging contaminant history lessons. As we embark on 
our second decade of microplastics research, we need to set our sights 
on how best to provide society with the information needed to decide 
what to do about our newest emerging contaminant.
                                              David Sedlak,
                                                   Editor-in-Chief.
Notes

Views expressed in this editorial are those of the author and not 
necessarily the views of the ACS. The author declares no competing 
financial interest.
                                 ______
                                 
                               Addendum 2
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Sullivan. Thank you for that testimony.
    We are now joined by a very distinguished witness, Senator 
Whitehouse, who has been a leader on this issue, and I am very, 
very pleased that he has joined us today to testify on an issue 
that he has not only led on in the Senate, but is very 
passionate about.
    Senator Whitehouse.

             STATEMENT OF HON. SHELDON WHITEHOUSE, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Whitehouse. Intermittently distinguished, Chairman 
Sullivan, intermittently. But thank you to you and Senator 
Peters. I really appreciate this opportunity.
    Senator Sullivan. Just so you know, we've probably had 
about eight or nine senators at this hearing already, so 
there's a lot of interest.
    Senator Whitehouse. Well, there should be, because this is 
a very important issue. One of the things that we are learning, 
as you know, is that billions of tons of plastic is going into 
the oceans.
    We did a hearing together in the Environment and Public 
Works Committee, in which the testimony was that a great deal 
of that was going into the Pacific, and your Aleutian Islands 
reach up like an arm across the top of the Pacific and catch an 
enormous amount of that waste along your shores. I believe that 
the comparison was that in Rhode Island, we do annual beach 
cleanup with garbage bags and you have to do it with front-end 
loaders and containers at a whole level of scale with tons per 
linear mile of ocean front in some places.
    So it's really serious, and what we have learned through 
the good work of Ocean Conservancy and a scientist, I believe, 
at the University of Georgia named Jenna Jamison, is that the 
biggest contributor to that problem is a handful of Asian 
nations that have horrible upland waste management, and because 
plastic lasts so long, if you have terrible upland waste 
management, sooner or later, things work their way to the sea, 
and then off you go to the races, and then you end up with 
these billions and billions.
    So one of the things that we're recommending in the 
legislation that you have led on is that our trade 
representatives start to pay attention to this fact. If it's 
hitting home in Alaska, if it's hitting home around the world, 
we should not be paying zero attention, which is the record so 
far, to this problem of treating a trading partner of ours as 
if it's totally okay to have zero upland waste disposal, give 
them competitive advantage because they don't have to pay for 
waste disposal, and we pick up half of their tab through the 
trash that we then have to clean up.
    The second piece of this that I'll mention in my remarks 
today is that the stuff goes out there, and we are headed for a 
world in which there's actually more plastic waste mass in the 
ocean than there is living fish mass in the ocean. That's not a 
great place.
    But the plastic doesn't biodegrade in the ocean. It breaks 
down into smaller and smaller and smaller and smaller pieces to 
the point where those little pieces can be taken up by little 
phytoplankton, and little creatures in the food chain, whatever 
is eating down there, gets these little things in them, and 
then they start working their way back up the food chain. And 
we have no idea what effect that has on human consumption of 
fish and on people who have fish, like many Alaskans do, as a 
big part of their diet. So we need to study that.
    And we need to put to work our national labs and our 
universities to try to figure out how to make a plastic that 
when you leave it in the ocean, it actually biodegrades back to 
core elements and reintegrates into the natural world instead 
of just making smaller and smaller and smaller plastic pieces.
    This is a great issue for us to work together on in a 
bipartisan fashion. It was your leadership that caused the 
hearing to be held in the Environment and Public Works 
Committee. It's your leadership that has caused this hearing to 
be held today. I stand with you, ready to help in any way.
    I hope that if we can get through our current standoff on 
healthcare and go back to more regular order, that our bill 
becomes something that can move rapidly through the hotline. 
There's an equivalent bill in the House, so there's a real 
opportunity here for bipartisan progress. But it would not be 
possible without your leadership, and Senator Peters is also an 
original co-sponsor as well as a co-leader of our Oceans 
Caucus, which has been very successful in moving this forward.
    So with all of that, let me express my appreciation to you 
both. Let me express my appreciation to the Committee for 
allowing me to come and testify and show my support and ring 
out with the message that this is important. This is something 
that our children and grandchildren will be looking at us to 
say, ``Why did you or didn't you do something about this?'' And 
this is a real bipartisan opportunity.
    Senator Sullivan. Well, thank you very much, and I think 
you're being a little humble here, because I appreciate the 
comments about the leadership. But just for the record, the 
driving force on this, where I've learned a lot about this 
issue, not just from my constituents, but from Senator 
Whitehouse. So it is true bipartisan effort and consideration 
with Senator Peters. Senator Booker, who was here earlier, gave 
a very impassioned testimony and plea. So I think this is 
something----
    Senator Whitehouse. And, of course, your senior senator, 
Senator Murkowski, was the original co-founder of the Oceans 
Caucus and has been a part of this all along as well. So a big 
Alaska footprint on this, but primarily yours, and I appreciate 
it. The gavels matter, and you've used yours to great effect.
    Senator Sullivan. Well, and one thing that we mentioned 
earlier--this has passed out of committee, in the Commerce 
Committee, already, bipartisan, and I believe we are beginning 
the hotline process, and so, hopefully, we can move that soon. 
But thank you again for your testimony.
    Senator Whitehouse. Thank you for the invitation.
    Senator Sullivan. Professor Duhaime, we have a couple of 
follow-up questions. Thank you for your patience. Let me just 
go to kind of two issues that Senator Whitehouse talked about 
that has really been a theme here. But you're really kind of 
very well positioned, given your background and your research, 
to help us understand these issues better.
    The bottom line is we really don't know what the impact and 
health effects are right now with regard to the micro plastics 
to the health of fish or even the impact for humans, correct?
    Dr. Duhaime. That is true. One of the notes that I wrote 
down earlier that I heard repeatedly was the quote, ``we don't 
know.''
    Senator Sullivan. Yes. Well, again, we appreciate your 
professional work and your research and want to encourage you 
to do that so we do know. But let me get to another question 
that he raised that I think is also--we can view as an 
opportunity and a challenge.
    I mentioned--and I just submitted for the record--the 
statement by the American Chemical Council. Senator Peters and 
I were talking about this before the hearing. Are we getting 
close, in your view, from the perspective of research and 
what's going on in industry or academia, with regard to having 
at least, for example, salt water, a true biodegradable 
plastic? It would seem to me that would be very, very good for 
the environment and our oceans, and it would also be an 
opportunity for entrepreneurs who could ever figure out a way 
to do that to benefit as well, a win-win.
    But do you believe that we're getting there? Because that 
could be very helpful. We're not there yet.
    Dr. Duhaime. Unfortunately, I do have to admit I'm not a 
chemist and an expert in the realm of material sciences. So I 
think you'd be better suited to direct that question at someone 
with that expertise.
    Senator Sullivan. OK, because I do think we're seeing that 
in terms of even Styrofoam and other areas that we could have 
the potential for a full biodegradable product that could help, 
and, again, that's another area that we're going to be focused 
on.
    Let me ask you a final question. You know, there has been 
talk about the Great Lakes. There has been talk about the 
oceans. Does marine debris that reaches freshwater pose a 
different threat, different challenge, different way that we 
should think about it from a policy perspective, than marine 
debris found in our oceans? Or is it pretty much broadly viewed 
as the same direct challenge?
    Dr. Duhaime. I think there are a few differences in how the 
plastic behaves in the environment influenced by the 
freshwater, which will influence its distribution in the water 
column. But I think more from a policy and human impact 
perspective, one thing that we do need to think about 
differently is that freshwater is drinking water sources, so 
having a closer look at the impact on freshwater as a drinking 
water source and serving as a mechanism to deliver plastics to 
our bodies.
    Senator Sullivan. Are there any immediate steps our state 
or Federal agencies could take, in addition to what's in this 
bill, which is focused in a lot of ways on the oceans, to 
combat marine debris in the Great Lakes region?
    Dr. Duhaime. I think a lot of the efforts and initiatives 
are quite transferable to the Great Lakes.
    Senator Sullivan. OK. Great.
    Dr. Duhaime. So I don't know any other specific 
recommendations that would be targeted at the Great Lakes.
    Senator Sullivan. Great.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    And thank you, Dr. Duhaime, for being here and thank you 
for all the work that you're doing on the Great Lakes. We spent 
a lot of time during this hearing discussing the oceans, which 
are vitally important to the planet's health, but as the 
Senator from Michigan, I'm very concerned about the health of 
our state as well as the other states around the Great Lakes 
basin.
    You mentioned in response to a question from Chairman 
Sullivan regarding human health issues, or differences perhaps 
in freshwater versus oceans, and you brought up the issue of 
drinking water. I think it's very important, and one thing that 
I remind my colleagues about frequently here is that the Great 
Lakes provide drinking water to over 40 million Americans--a 
pretty significant source of water.
    When I hear about your study--and I'd like you to elaborate 
on your study of the amount of plastic that you're finding in 
the Great Lakes, particularly microfibers. This is obviously 
being ingested by human beings, 40 million who are drinking out 
of the Great Lakes. To what extent do treatment plants deal 
with this pollution when we're drinking that water? Are we 
effective in doing that? Is that a major concern that we have 
to consider?
    Dr. Duhaime. I personally don't have experience monitoring 
or evaluating drinking water treatment. I have been into 
multiple waste water treatment plants to monitor the processing 
through those types of treatment plants, and then what is 
output to the natural system. But I think one thing that does 
need to be done is looking at the source of drinking water and 
seeing what does pass through and how treatment systems are 
treating it.
    Senator Peters. So at least from your background, there has 
not been a lot of research into that area at this point?
    Dr. Duhaime. Not of drinking water.
    Senator Peters. So this is--we know that microfibers and 
other types of plastics are very extensive in the Great Lakes. 
In fact, if I recall from the testimony you just gave, you saw 
some of the highest levels ever. Would you elaborate on that, 
please?
    Dr. Duhaime. Yes, that is true. I also believe that is a 
difference that you will see emerging when we start comparing 
counts and concentrations from marine systems to the Great 
Lakes. As you mentioned in your opening remarks, there is 
something to the dilution effect, and when you consider the 
concentration of humans living around coastlines, for instance, 
the Great Lakes, and the amount of water that's there, it is 
much more concentrated, and so that gives rise to the 
opportunity for greater incidence of encounter with humans with 
organisms living in the water.
    Senator Peters. What was the figure you gave for the 
Detroit River?
    Dr. Duhaime. That was 2 million particles per square 
kilometer--was the value there that we counted.
    Senator Peters. And how did you compare that to the normal? 
You said that was the highest concentration that you've----
    Dr. Duhaime. Yes. So prior in the Great Lakes, it was--half 
a million was the greatest value before our study was 
performed, and that was in the Eastern Basin of Lake Erie, so 
generally less close to the coast, and I think that could have 
been influencing our high concentrations in the Detroit River.
    Senator Peters. So that's why you think there's a 
difference in the findings from previous findings of 
researchers in the Great Lakes?
    Dr. Duhaime. Yes. I think one of the reasons why our study 
was enlightening was the greater number of studies. So for more 
statistically robust counts, you need more sample points and 
greater samples. That actually gets you another bottleneck in 
this type of research, and the quality of the data, the 
reliability of the data that comes out of it is that--I think 
one of the problems right now is the--the best I can refer to 
it is that we're using cave man approaches to plastic 
quantification, that we really need improved analytical 
approaches to bring the data collection where it should be in 
the 21st century, so really harnessing the applied chemistry 
and physics that we know is out there.
    Right now, what we do is we go out, we pick up plastic, and 
we count it, and that's usually with a plastic nylon mesh net 
which--you mentioned previously that fibers are an emerging 
issue, which is very much the case, and we see them enmeshed in 
the tissues of organisms in the Great Lakes or in that 
digestive tract. But how can we reliably count fibers with a 
nylon mesh net?
    So there are certainly advancements in our ability to 
collect that raw data, those count data, that could be 
improved. But why are we simply picking things up and counting 
them with our eyes? It's because these are the only techniques 
that are available to us. They're inexpensive. But we can and 
should, with funds provided, improve the analytical capacity to 
collect data.
    Senator Peters. In the response to the question from 
Chairman Sullivan about the differences between freshwater in 
the Great Lakes and the oceans, you mentioned, of course, 
drinking water, which you elaborated on with my question. But 
you also mentioned that the distributions are different. Would 
you please elaborate on that?
    Dr. Duhaime. Distributions of different plastics?
    Senator Peters. Correct, that it's different in the Great 
Lakes, and the movement is different than what you may find in 
the oceans, and why that should be a concern to us?
    Dr. Duhaime. Yes. So those differences stem from really the 
physical properties of water and salt versus freshwater. So the 
lower salinity means that the plastic that would normally float 
on the surface of the ocean will find a different place to 
settle or find its neutral position in the water column. So 
things that float in the oceans could presumably sink in 
freshwater, and our models have confirmed that floating plastic 
leaves the lakes faster than non-floating plastic. So that in a 
closed or more relatively closed system like the Great Lakes 
could lead to a higher concentration, a higher residence time 
of plastics in the lakes.
    Senator Peters. Well, given your extensive study--just one 
final question, Mr. Chairman--what do you believe are the next 
research steps that we need to take to improve our 
understanding of the Great Lakes and the debris problem that's 
there?
    Dr. Duhaime. So as has come up several times in the second 
panel, the studies of organismal impacts of ingestion and 
inhalation, including humans, is of utmost priority. Also, 
updating the standards for measuring risks are, I think, an 
important element that deserves some discussion, that are more 
appropriate for the properties of plastic. So in our kind of 
regiment, there are mechanisms to evaluate risk, environmental 
risk, put forth by agencies such as the EPA. Currently, they're 
not well suited to describe and define the risk incurred due to 
plastic.
    As I mentioned, improved analytical techniques are 
essential to bring our data collection to where it should be, 
as well as improved modeling of plastic transport. So in the 
absence of high throughput, highly accurate data collection, an 
alternative mechanism to give us information about where 
plastic is going, which habitats are most at risk, could be 
employing hydrodynamic models to predict where it will go and 
how quickly, as well as--this is outside of my expertise--but 
economic and health and societal impacts, and more the study of 
the societal impact of plastic pollution, its cleanup, and its 
prevention, I think, are needed to help define incentives for 
change.
    Senator Peters. Thank you, Doctor. I appreciate your 
testimony today. Thank you.
    Senator Sullivan. Professor Duhaime, thank you again for 
your testimony, and we very much appreciate the work you're 
doing. We want to encourage you to keep it up and continue to 
help us have a better understanding. But you did a very good 
job of that today.
    So without any further questions, this hearing is now 
adjourned.
    [Whereupon, at 11:41 a.m., the hearing was adjourned.]

                            A P P E N D I X

               Prepared Statement of the U.S. Coast Guard
Introduction
    Marine debris is a risk not only to the coastal and offshore 
environment, but also poses a hazard to navigation As the lead Federal 
regulator for the maritime industry, the Coast Guard actively partners 
with the National Oceanic and Atmospheric Administration (NOAA), the 
Army Corps of Engineers (USACE), the U.S. Fish and Wildlife Service 
(USFWS), and other members of the Interagency Marine Debris 
Coordinating Council (IMDCC) to ensure safe navigation and protect the 
marine environment.
Interagency Coordination for Marine Debris
    NOAA is the lead agency for conducting research, monitoring, 
prevention, and reduction activities for marine debris. NOAA's Marine 
Debris Program leads this effort and NOAA chairs the Interagency Marine 
Debris Coordinating Committee (IMDCC). The Coast Guard supports NOAA by 
participating as a member of the IMDCC.
    The Marine Debris Research, Prevention and Reduction Act of 2006 
identifies the Coast Guard as an agency that NOAA should coordinate 
with to address marine debris issues. To date, the Coast Guard has been 
fully engaged with NOAA in support of marine debris monitoring and 
tracking in order to ensure safe navigation for shipping and to protect 
the marine environment. Coast Guard actions in support of NOAA depend 
on the type of the debris.
    The Coast Guard, as the Federal On Scene Coordinator (FOSC) for the 
Coastal Zone, leads removal actions under the National Contingency Plan 
(NCP) for any debris that poses a potential oil or hazardous substance 
threat to the environment.
    Additionally, the Coast Guard coordinates with USACE to ensure our 
waterways are free of any hazards to navigation. Upon report of an 
obstruction to navigation in U.S. navigable waters, the Coast Guard and 
USACE work together to develop a removal or mitigation strategy. If the 
hazard to navigation is within a federally maintained shipping channel, 
the USACE will typically take action to remove it. If the hazard to 
navigation is not within a federally maintained channel, the Coast 
Guard may, among other things, choose to mark the hazard with a buoy 
and broadcast warnings to mariners.
    Critical to the Coast Guard's decision making process is the exact 
nature of the risk posed by the object to safe navigation. USACE and 
Coast Guard decision-makers ensure close coordination with state and 
local authorities and, in some cases, those non-federal authorities may 
choose to remove the object. Coast Guard resources and personnel may 
also be requested by NOAA to help with identifying, tracking, and 
monitoring debris by conducting overflights, with NOAA representatives 
aboard. In addition, Coast Guard resources and personnel partner with 
NOAA to help with documentation of, and response to, marine animals 
entangled in marine debris (e.g., marine mammals and sea turtles).
    The Coast Guard and NOAA actively work and plan together at all 
levels of both agencies. At the national level, the Coast Guard 
participates in interagency conference calls, hosted by NOAA, to 
provide strategic interagency coordination, awareness, and information 
sharing. At the regional and local level, operational commanders at the 
Areas and Districts are actively engaged with other federal, state, 
local, and tribal partners. Further, the Coast Guard coordinates 
outreach and education on marine debris prevention through its Sea 
Partners program and the Coast Guard Auxiliary and has partnered with 
NOAA through the IMDCC on outreach efforts on the prevention of waste 
(e.g., garbage and plastics) generated by recreational vessels.
Pollution Prevention Operations
    While debris removal is an important part of safeguarding the 
environment and the MTS, the Coast Guard plays an important role in 
preventing marine debris from entering our waterways and oceans. The 
Coast Guard leads this effort through examinations of foreign vessels 
for compliance with the International Convention for the Prevention of 
Pollution from Ships (MARPOL) Annex V. Coast Guard marine inspectors 
also verify that domestic vessels comply with the Act to Prevent 
Pollution from Ship (APPS), and the regulations associated with that 
U.S. law. The Coast Guard also plays a critical role in verifying that 
port facilities meet their legal requirements in accepting garbage and 
refuse from vessels calling on U.S. ports. This is a critical component 
in combating marine debris. Vessels must be able to offload their 
garbage when in port, so that they will not be tempted to dispose of it 
at sea.
Conclusion
    The Coast Guard will continue to work closely with NOAA and through 
the IMDCC to address the potential impacts of marine debris and will 
respond to substantial pollution threats or hazards to navigation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                       Melissa B. Duhaime, Ph.D.
Solutions for Debris
    Question 1. Dr. Duhaime, you described in your written testimony a 
host of impacts to the environment and human health and safety. We know 
plastic is a big part of the problem along with abandon and derelict 
fishing gear and vessels and other items.
    What are some potential solutions for debris in the Great Lakes and 
might there be different solutions in the oceans?
    Answer. The solution to the plastic debris crisis in the Great 
Lakes and in the oceans is universal; all components of the plastic 
pollution equation must be addressed.
    Plastic pollution is a function of the plastic produced (which 
itself is a function of the plastic demand and supply of raw 
materials--feedstock) in combination with the extent of plastic waste 
management. There are four major dependent or interacting elements: 
plastic production, demand, feedstock supply, and waste management. 
Solutions in the Great Lakes and oceans alike must address all four.
    First, we must address production. For a realized reduction of 
plastic produce, one must first ask ``which sector can we reduce, so as 
not to decimate the plastic industry nor eliminate the production of 
plastics beneficial to society?'' It is the production and use of 
disposable one-time-use plastics that must be curbed, especially for 
food packaging (one of the strongest plastic markets), rather than 
continue to rise. This argument is focused there. There is a systemic 
cultural addiction to the convenience of one-time-use plastic, yet 
plastic pollution is putting our ecosystem at risk.\1\ The full 
consequences of this risk are currently unknown, but the outcome has 
the potential to be dire for humans and the environment, alike. We know 
plastic is found in the food we eat,<SUP>2,3</SUP> but less discussed 
is that it also exists in the air we breathe.\4\ And not without risk: 
a decades old study confirmed that 97 percent of the malignant lung 
tumor specimens examined contained cellulosic and plastic fibers.\5\ 
Shifts in production to secondary, recycled products or more 
biodegradable plastics are considered below.
    Next, we consider demand and feedstock supply. There is money in 
plastics. We can't expect the demand for plastics to decrease on its 
own, especially if crude oil and natural gas-derived feedstock is not 
limiting. Nor with the good will of a handful of eco-minded first-world 
consumers decrease global demand. It may require policy to incentivize 
reduced production of one-time use disposable plastics or to shift the 
supply of primary plastic feedstock, be they derived from crude oil 
refining, natural gas processing, or biological material. 
Interestingly, the U.S. Energy Information Administration is unable to 
determine the specific amounts of each feedstock that go into plastic 
production, so the feasibility of a detailed evaluation of these 
markets is limited. Though I can highlight possible avenues to explore, 
the economics of the above suggestions are beyond my scope of 
expertise, yet their consideration is motivated by the ecosystem and 
human health risks of plastic pollution, to which I have spoken.
    Finally, in considering waste management, I address two major areas 
where the search for solutions can be focused: effectiveness of 
recycling initiatives and the development of biodegradable plastic (in 
the next section). Recycling in its current form is an insufficient 
solution to prevent plastic pollution.
    First, in discussions of waste management across the state of 
Michigan, other Great Lakes states, and Canada, it has become clear 
that recycling programs in the U.S. that are managed on a local scale 
simply do not work. For instance, even in the progressive Midwestern 
City of Ann Arbor, where most residents value and intend to recycle, 
the market for recycled materials is so volatile that it has been 
prohibitively risky to invest in management of recyclables. Economic 
buffers are needed to support the efforts of (especially small) 
municipalities to create and maintain recycling programs in the face of 
market volatility.
    Second, incentives for manufacturers to use recycled materials are 
needed, as well as for which secondary items are produced from recycled 
plastic. These items must have a large potential for displacement--the 
successful market competition with primary, non-recycled plastics.\6\ 
For, it is not the amount of material collected for recycling that 
matters for reducing environmental impact, but the amount of primary 
plastic that is displaced on the market.\7\ These items must be of 
great and sustained technical and economic value for maximal 
displacement,\6\ thereby avoiding downcycling, where the product's 
value decreases after being broken down into its constituent parts due 
to poor quality recycled material. Representing the current standard 
for reporting practices and foci, the Plastics Division of the American 
Chemistry Council represents and reports on activities of the leading 
manufacturers of plastic resins. This group often presents data lauding 
the increase in plastic recycling in recent years. However, these data 
do not account for the exponential increase in plastic production with 
time (if they did, recycling rates may flat line, or even decrease with 
time) and they tend to focus on the amount of material collected. In 
the future, maximally useful and productive assessments of the 
robustness and impacts of recycling systems must include the rate of 
primary plastic displacement and the market value of recycled items as 
they cycle through the economy. These are the reports policy makers 
should seek when considering effectiveness and robustness of recycling 
systems.
    Third, data shows that the majority of consumers are confused by 
plastic recycling programs.\8\ This also reduces the chance for success 
of introducing easy-to-degrade/ocean-degradable (as mentioned in the 
oral testimony) plastics. With more diverse plastic landscape, 
including knowledge of environmentally ``safe'' plastics on the market, 
consumers may be granted unintentionally the license to mismanage all 
plastic.
Innovations to Reduce Debris
    Question 2. Innovation, technology, and discoveries have helped to 
mitigate environmental problems in the past. Advancements have created 
some biodegradable plastics, but we understand that there are issues 
with biodegradable plastics actually degrading, especially in marine 
environments.
    Can you clarify what potential might exist to create biodegradable 
materials or more easily recycled materials to help mitigate this 
problem?
    Answer. Current chemistries of biodegradable plastics are intended 
to degrade in compost environments: warm habitats with minimal oxygen 
that are laden with microorganisms that specialize in the breakdown of 
complex carbon--such as the material found in soil, but which also 
includes plastic.
    Until we are able to reduce and eliminate the demand for one-time 
use plastics, one effective shift could be from petroleum-based 
plastics to biologically produced plastics (``bio-plastics''). For 
instance, PHA plastics (polyhydroxy-alkanoates) and other 
``compostable'' plastic can be produced from plant material, such as 
corn, potato, and soybeans (though note, compostable plastic can also 
be produced from petroleum-based resins). The biodegradation of bio-
plastics is more rapid than petroleum-based plastic, especially when 
conditions are optimal. Optimal conditions include fully contained 
compost or a healthy, functional landfill operation with abundant 
airflow.
    However, when not optimal (especially when oxygen becomes 
limiting), the degradation products of these bio-plastics (and even the 
``compostable'' petroleum-based plastics) can be detrimental to the 
planet, potentially more so than the accumulation of persistent petro-
plastics.
    If easy to degrade and compostable bio- and petro-plastics inundate 
our landfills (as they will under current waste management practices), 
the rate of methane production by landfills will increase. In the US, 
landfills are already the third largest source of methane, a greenhouse 
gas 25 times more detrimental to our atmosphere than carbon dioxide. 
Though, when managed properly, there are many innovative possibilities 
for such easy-to-degrade and compostable plastics. For instance, if 
completely harnessed in a plastic-specific bioreactor, methane can be 
used as an energy source rather than being released to the atmosphere 
and continuing to contribute to current global warming. Further, 
informed by the knowledge delivered by environmental bioprospecting 
(more in next section), these plastic-specific bioreactors can be 
intentionally seeded with microorganisms able to degrade such plastic. 
This concept is similar to how wastewater treatment plants are 
engineered with organisms to scavenge phosphorus to prevent 
environmental phosphorus pollution. Such investments in waste 
management infrastructure innovation are requisite. The time is ripe 
for their development and installation, as most waste management 
infrastructure in the U.S. is aging and in need of replacement.
    In summary, there is potential for innovative design of new 
plastics, for instance compostable (already on the market) and other 
easy to degrade (e.g., in ocean or freshwater environments) resins. 
However, the shift towards easy to degrade/compostable resins for one-
time use plastics must be met with a transition to innovative waste 
management infrastructure (e.g., bioreactors, plastic-specific or not). 
Otherwise, the risk to planetary health due to enhanced atmospheric 
methane could be incurred.
Research in Action
    Question 3. Dr. Duhaime, in your written testimony, you describe 
your data and research contributing to action plans, educating the 
public, and recommendations for addressing the problem of debris in the 
Great Lakes.
    Can you elaborate on the ways in which your research is 
contributing to developing solutions to this important environmental 
issue?
    Answer. As a lab focused on environmental microbiology, our current 
work is focused on the microscopic life forms that live on plastic 
debris (in both the Great Lakes and ocean systems). As little is known 
about these organisms, our first task is always to identify which 
microbes are there and how they differ from the native water 
communities. For instance, from these data types (essentially, species 
lists) we have been able to identify the core species that are 
typically found on plastic in the oceans and lakes. These plastic-
dwelling microbes are candidates to explore for the potential to 
degrade the polymers. The next level of investigation (beyond the 
``species list'') requires the reconstruction of the genomes and 
metabolic pathways of these microbes, an analysis currently active in 
our lab. These data will indicate whether plastic-dwelling microbes 
encode metabolic pathways with the potential for polymer degradation. 
In this way, we are bioprospecting new microbes and metabolisms that 
may be able to breakdown plastic.
    Notably, these approaches have also identified potential pathogens 
living on plastic. Our current data will confirm whether these 
pathogenic strains indeed exist on plastic and carry the genes needed 
for pathogenicity.
    We have been working in partnership with the NOAA Marine Debris 
Program for 4 years. This group continues to serve as a critical and 
effective platform for researchers to disseminate their findings to 
outreach, education, and clean-up organizations, as well as to hear 
from these groups to learn the on-the-ground research questions and 
needs. This system works. Its funding is critical.
    As far as recommendations, we need greater industry partnership 
with the basic research of academia. For instance, with our expertise 
in prospecting and harnessing microbial diversity and metabolisms, we 
could work with plastics producers to more specifically define the 
microbial drivers and by-products of biodegradation to design next 
generation plastics with safe breakdown products. Such industry-
academic unions are where the real potential for innovative change is 
possible.
Research for Solutions
    Question 4. Dr. Duhaime, in your written testimony, you shared with 
us some of the modeling work that you and your collaborators have done 
to show how debris and its movement in the Great Lakes can change over 
time.
    Are there ways that we can use the information that you have 
learned through your research to improve the effectiveness of our 
debris prevention and debris clean-up efforts?
    Answer. Note this response mentions the Great Lakes, but can be 
applied to ocean systems as well.
    Our research, and that of other researchers in the Great Lakes, has 
quantified the abundance of plastic across the Great Lakes and its 
tributaries <SUP>9-12</SUP> and modeled (in other words, combined math 
and physics to predict) the distribution and movement of plastic 
through the lake.<SUP>12,13</SUP> This knowledge can be applied to 
minimize the ecosystem risks incurred by increasing the effectiveness 
or debris prevention and clean-up efforts. By helping to identify 
patterns in the distribution and movement of plastic, we can better (1) 
identify sources of plastic, (2) determine whether some biomes are more 
at risk than others, e.g., breeding grounds or larval nurseries of 
economically important fish populations or endangered and threatened 
species, and (3) strategically focus clean-up efforts on habitats that 
are most impacted.
Differences with prior research
    Question 5. Dr. Duhaime, the extensive work you did in 2014 has 
found plastic concentrations much higher than previous studies and 
found that most of the plastics in the Great Lakes are broken down, or 
``secondary,'' plastic fragments.
    What might have contributed to the different findings between your 
work and earlier work? Did the extensiveness of your sampling 
contribute to the observed differences? Is the nature of debris in the 
Great Lakes changing over time?
    Answer. Previous surveys of plastic pollution in the Great Lakes 
were performed only 1-4 years prior to ours.<SUP>10,11</SUP> We do not 
expect these differences to have arisen due to a change in plastic over 
such a small window of time.
    We attribute the differences to be due primarily to two differences 
between the studies. The first difference is that we collected and 
counted plastic down to 100 mm, while the smaller size examined in 
previous reports was three times larger.<SUP>10,11</SUP> All plastic in 
the environment will fragment into smaller and smaller pieces, thus one 
would predict the smallest size classes to have the most plastic. We 
found this to be the case in the Great Lakes.
    The second reason we found such higher counts was due to where we 
sampled. In addition to sampling the middle of Lake Erie's western, 
central and eastern basins, we strategically sampled the coastline 
around high population density urban centers (Lake St. Clair, Detroit 
River, Cleveland, Erie, Buffalo). These sites were found to contain the 
highest numbers of plastic. The previous study in Lake Erie restricted 
their sampling to the middle of the lake.\10\
Works Cited
    1. Rochman, C. M., Browne, M. A., Underwood, A. J., Franeker, J. 
A., et al. The ecological impacts of marine debris: unraveling the 
demonstrated evidence from what is perceived. Ecology 97, 302-312 
(2016).
    2. Van Cauwenberghe, L. & Janssen, C. R. Microplastics in bivalves 
cultured for human consumption. Environ Pollut 193, 65-70 (2014).
    3. Rochman, C. M., Tahir, A., Williams, S. L., Baxa, D. V., et al. 
Anthropogenic debris in seafood: Plastic debris and fibers from 
textiles in fish and bivalves sold for human consumption. Sci Rep 5, 
14340 (2015).
    4. Dris, R., Gasperi, J., Saad, M., Mirande, C. & Tassin, B. 
Synthetic fibers in atmospheric fallout: A source of microplastics in 
the environment? Mar Pollut Bull 104, 290-293 (2016).
    5. Pauly, J. L., Stegmeier, S. J., Allaart, H. A., Cheney, R. T., 
et al. Inhaled cellulosic and plastic fibers found in human lung 
tissue. Cancer Epidemiol Biomarkers Prev 7, 419-428 (1998).
    6. Geyer, R., Kuczenski, B., Zink, T. & Henderson, A. Common 
Misconceptions about Recycling. Journal of Industrial Ecology 20, 1010-
1017 (2016).
    7. Zink, T., Geyer, R. & Startz, R. A Market-Based Framework for 
Quantifying Displaced Production from Recycling or Reuse. Journal of 
Industrial Ecology 20, 719-729 (2016).
    8. RECOUP, RECycling of Used Plastics Limited Plastics Packaging 
and Recycling: Consumer Attitudes and Behavior. http://www.recoup.org/
p/281/consumer-insight-summary (2014).
    9. Baldwin, A. K., Corsi, S. R. & Mason, S. A. Plastic Debris in 29 
Great Lakes Tributaries: Relations to Watershed Attributes and 
Hydrology. Environ Sci Technol 50, 10377-10385 (2016).
    10. Eriksen, M., Mason, S., Wilson, S., Box, C., et al. 
Microplastic pollution in the surface waters of the Laurentian Great 
Lakes. Marine Pollution Bulletin 77, 177-182 (2013).
    11. Mason, S. A., Kammin, L., Eriksen, M., Aleid, G., et al. 
Pelagic plastic pollution within the surface waters of Lake Michigan, 
USA. Journal of Great Lakes Research 42, 753-759 (2016).
    12. Cable, R., Beletsky, D., Beletsky, R., Locke, B. W., et al. 
Distribution and modeled transport of plastic pollution in the Great 
Lakes, the worlds largest freshwater resource. Frontiers in 
Environmental Science 5, 40 (2017).
    13. Hoffman, M. J. & Hittinger, E. Inventory and transport of 
plastic debris in the Laurentian Great Lakes. Mar Pollut Bull 115, 273-
281 (2017).

                                  [all]
</pre></body></html>
